<html>
<title> - RELIGION WITH ``CHINESE CHARACTERISTICS'': PERSECUTION AND CONTROL IN XI JINPING'S CHINA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






               RELIGION WITH ``CHINESE CHARACTERISTICS'':
             PERSECUTION AND CONTROL IN XI JINPING'S CHINA

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available via the World Wide Web: http://www.cecc.gov
         
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-782 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     SHERROD BROWN, Ohio
TRENT FRANKS, Arizona                DIANNE FEINSTEIN, California
RANDY HULTGREN, Illinois             JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  GARY PETERS, Michigan
MARCY KAPTUR, Ohio
MICHAEL HONDA, California
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Walz, Hon. Timothy J., a U.S. Representative from Minnesota......     3
Hultgren, Hon. Randy, a U.S. Representative from Illinois........     4
Lin, Anastasia, Human Rights Activist and the Current Miss World 
  Canada.........................................................     6
Fu, Bob, Founder and President, ChinaAid Association.............     8
Kadeer, Rebiya, President, World Uyghur Congress.................    12
Gyatso, Losang, Tibetan Service Chief, Voice of America..........    16
Pittenger, Hon. Robert, a U.S. Representative from North Carolina    26

                                APPENDIX
                          Prepared Statements

Lin, Anastasia...................................................    31
Fu, Bob..........................................................    34
Kadeer, Rebiya...................................................    60
Gyatso, Losang...................................................    62

Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    64
Rubio, Hon. Marco, a U.S. Senator from Florida; Cochairman, 
  Congressional-Executive Commission on China....................    65

                       Submission for the Record

Statement Submitted for the Record by Ellen Bork, Senior Fellow, 
  Foreign Policy Initiative; Visiting Fellow, Henry Jackson 
  Society........................................................    67
Statement by CECC Chairs Representative Chris Smith and Senator 
  Marco Rubio on President Xi's ``Increasingly Bold Disregard for 
  Basic Human Rights''...........................................    69
Witness Biographies..............................................    69

 
 RELIGION WITH ``CHINESE CHARACTERISTICS'': PERSECUTION AND CONTROL IN 
                           XI JINPING'S CHINA

                              ----------                              


                        THURSDAY, JULY 23, 2015

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 11:02 
a.m., in HVC 210, Capitol Visitor Center, Representative 
Christopher H. Smith, Chairman, presiding.
    Also present: Senator Marco Rubio, Cochairman; and 
Representatives Randy Hultgren, Robert Pittenger, and Timothy 
J. Walz.

    OPENING STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. Good morning, and thank you especially to 
our very distinguished witnesses for being here this morning, 
as well as to all of those who care so deeply about human 
rights and are here in the audience.
    The freedom of religion is the most fundamental and the 
most elemental of all human rights. It is clearly the first 
freedom from which all the others flow. It allows each citizen 
the precious right to follow their conscience peacefully and 
without fear.
    It protects the critical part of who we are as human beings 
to seek, to speak, and to act out our fundamental beliefs. When 
this freedom is protected, the very well-being of society is 
enhanced. No government should deny or suppress this essential 
claim to conscience.
    The reality is, and the tragic reality is, governments and 
terrorist groups do restrict the freedom of religion, sometimes 
in the most brutal and public ways. The freedom of religion 
today, as it has been for a number of years, is under siege in 
many places in the world, including and especially in China, 
which is of course the subject of today's hearing.
    Because religious freedom conditions are deteriorating 
globally, I recently introduced H.R. 1150, the Frank Wolf 
International Religious Freedom Act. The bill gives the 
administration tools to better address religious freedom 
violations around the world.
    It is why I am also fighting to reauthorize the U.S. 
Commission on International Religious Freedom, or USCIRF, which 
is a bipartisan and independent advisory group that has done 
incisive work over the years. USCIRF gives Congress vital 
recommendations about religious freedom conditions globally and 
recommendations for actions.
    Several years ago during a visit to the United States, Xi 
Jinping was interviewed by a Chinese reporter on fellowship at 
U.S. colleges. After the interview, President Xi asked a single 
question of this reporter who was there, not about his family, 
not about his studies, not about whether he enjoyed living in 
the United States.
    The one question he asked was, ``Why do so many Chinese 
students studying in the United States become Christian? '' Why 
one of the most powerful political leaders would ask this 
question may never be known, and the student did not have an 
answer.
    But religion was on President Xi's mind that day. Whatever 
was behind the complex question, religious freedom conditions 
in China, especially under his watch, have not improved. Quite 
the opposite. It has been a punishing year for China's diverse 
religious communities.
    China continues to rank right up there with Iran, Vietnam, 
and Saudi Arabia in terms of the sheer misery it inflicts on 
members of its diverse religious communities. This is the 
verdict of the bipartisan, independent U.S. Commission on 
International Religious Freedom.
    It is the verdict of the State Department--if only it would 
connect with policy--but it is in the human rights reports and 
China has been again designated as a country of particular 
concern, and has been since 1999, for being one of the worst 
violators in the world of religious freedom. This is also the 
verdict of human rights organizations.
    Chinese authorities are frightened by the simple 
proposition that individuals have the right to live out their 
beliefs openly and peacefully without fear of intimidation. All 
we have to do is look at events in the past few weeks to see a 
coordinate, unnecessary, and often brutal campaign to manage, 
control, or crush China's many religious communities. It has 
been a very bad month in China.
    Two days ago, a cross on a Christian church was burned near 
the city of Wenzhou. Over 1,200 crosses, along with 35 church 
buildings, were demolished since 2014. This was done reportedly 
because they were too prominent, demonstrating the Party's 
weakness.
    During the just-concluded month of Ramadan, Uyghur Muslim 
students, teachers, professors, and government employees were 
deprived of the freedom to fulfill their religious duties. In 
recent years, officials have shut down religious sites, 
conducted raids on independent schools, confiscated religious 
literature, and banned private study of the Koran. A new draft 
counterterrorism law equates terrorism with ``the religious 
education of minors.''
    The Dalai Lama turns 80 this month and the Chinese 
Government expanded attempts to undermine his leadership and 
control in the selection of the Tibetan Buddhist leaders. Two 
hundred and seventy-three Tibetan Buddhist monks and nuns are 
currently detained. Sadly, the Reverend Tenzin Deleg died in 
prison last week; he was serving a life sentence on politically 
motivated charges.
    Beijing also continues its relentless 16-year campaign to 
absolutely obliterate the Falun Gong, the anniversary of which 
is each year during July. There are reports of torture, 
detention, deaths in custody, and allegations based on credible 
evidence of harvesting of organs.
    Two weeks ago, the Chinese Communist Party authorities also 
launched a massive crackdown on human rights lawyers. The 
lawyers were accused of being ``a criminal gang,'' charged with 
``creating chaos'' because they defended the rights of Falun 
Gong, Uyghurs, Christians, and other persecuted persons in 
China. Many of the lawyers detained are professing Christians, 
spurred by their faith to defend the vulnerable and at-risk.
    Senator Rubio and I put out a statement about the arrest of 
human rights lawyers in China. We call the detentions 
unjustified and said the roundup of human rights lawyers was an 
undeniable set-back in U.S.-China relations. I would like to 
add that statement for the record. Without objection, it is so 
ordered.
    China actively suppresses the faith of communities. Its 
massive repression of rights lawyers and the brutal and 
sometimes deadly ways it deals with prisoners of conscience are 
a sad and black mark on China's recent history. It will be 
remembered by history as brutal, unnecessary, and entirely 
counterproductive.
    It is counterproductive because religious restrictions make 
China less stable. Repression can exacerbate extremism and 
cause instability. Religious freedom, according to the Pew 
Research Center, can be a powerful and effective antidote to 
religious extremism. It is counterproductive because targeting 
peaceful religious citizens undermines the legitimacy of the 
state because it reminds even non-believers of the state's 
capricious power.
    It is counterproductive because religious persecution 
marginalizes the persecuted, robbing China of their talents, 
their economic productivity, and their contributions to 
society. The issue of religious freedom must be addressed by 
the administration during a planned summit in September, but we 
must ask whether this summit should even take place.
    There are many issues in the U.S.-China relationship that 
need attention, but given President Xi Jinping's bold disregard 
for human rights and his brutal suppression of dissent, does he 
deserve to get the red carpet treatment in Washington?
    I would like to yield to my good friend, Mr. Walz, for any 
opening comments.
    [The prepared statement of Representative Smith and the 
joint statement submited for the record by Representative Smith 
and Senator Rubio appear in the appendix.]

 STATEMENT OF HON. TIMOTHY J. WALZ, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Representative Walz. Well, I thank the Chairman first of 
all for his passion and his lifelong commitment to human 
rights, and second for holding this important hearing. I would 
also like to thank our witnesses. Your courage and activism 
inspires all of us and it is that very real part of being human 
that the Chairman spoke about, the spiritual side of each of 
us, we understand how important it is.
    As many of you know--I have spoken about it in this 
Commission many times--I, as a young man, had the opportunity 
and the privilege to live in Foshan in Guangdong and have still 
many acquaintances and part of who I am shaped by those 
experiences.
    Just like any nation, the sense of what we want as humans, 
the opportunity to live our lives as we choose, to worship and 
believe as we choose, is fundamental. So the Chairman holding 
this hearing is exactly right. I do not think it is any secret, 
the statistics and the recent events the Chairman talked about 
against religious freedom.
    But I think what most of us know is that, again, nations 
and citizens are not synonymous, but I think as we both know 
the way to strengthen a nation and strengthen that sense of 
resolve is through respecting the spiritual freedoms and the 
religious freedoms of their citizens. I think it is important 
to have these hearings.
    Every nation strives toward a more perfect union, and I 
think it is incumbent upon us as citizens of the world, if you 
will, to make this case. So the Chairman is exactly right. I am 
grateful for him bringing this forward.
    We are here today to hear from each of you, and I think you 
should view this Commission--the Chairman's passion is 
evident--that this is a place that we understand our 
responsibility to be a place where we can have the 
conversation, where we can further those goals and where we can 
make the case to the Chinese Government that the way to 
strengthen the nation is to honor those religious freedoms.
    So, Chairman, I thank you.
    Chairman Smith. Mr. Walz, thank you very much. Thanks for 
underscoring that this is a truly bipartisan Commission and 
there is no distance between us. There are lots of other issues 
where we disagree, but not here. I think it is important that 
that be conveyed to the Chinese leadership.
    Randy Hultgren?

    HON. RANDY HULTGREN, A U.S. REPRESENTATIVE FROM ILLINOIS

    Representative Hultgren. Thank you, Chairman. I also want 
to echo my gratitude for the work that each of you has done 
fighting for human rights, letting us know how we can work 
together. This really is something that is universal for us. We 
know that if religious freedom is taken away in other places, 
if people are persecuted for their faith, it very easily can 
happen here as well. So we have to be vigilant, we have to be 
ever watchful of how important this basic freedom is.
    So I just again want to thank you, all of you, for being 
here, for the position that you put yourselves in and your 
families in to be a strong voice for what is right. We want to 
help. I am convinced that as we shine light into some areas 
that are dark, this will cause things to change.
    So this is a pivotal time, I know, with the President's 
visit coming up, we need, as a Congress and as an 
administration, to stand up again for people who do not have a 
voice themselves. You are speaking up for them, and we need to 
speak up for them. So, thank you. I look forward to learning 
from you.
    Mr. Chairman, I appreciate, as always, your incredible work 
on this and other issues as well. I yield back.
    Chairman Smith. Thank you so much, Mr. Hultgren, for your 
leadership. I am glad you are not in the chair again. You have 
been presiding over the House many, many days. It is good to 
have you here.
    I would like to now begin with our witnesses, beginning 
first with Ms. Anastasia Lin, who is a Toronto-based actress. 
She won the Miss World Canada title in 2015. Since her start in 
acting at the age of seven, Anastasia has appeared in over 20 
films and television productions, and most prominently played 
lead actress in several Toronto-based films about human rights 
themes in China.
    Her work has garnered numerous international awards, 
including the Mexico International Film Festival's Golden Palm 
Award and the California Indie Fest Award of Merit. Along with 
her acting and participation in pageants, she is also known for 
her public position against human rights abuses in China, a 
very brave position.
    Canadian television reports attributed her victory in the 
2015 Miss World pageant in part to her passion for human 
rights. Anastasia will participate in the 2015 Miss World 
competition to be held this December in Sanya City in China.
    We will then hear from Pastor Bob Fu, who was a leader in 
the 1989 student democracy movement in Tiananmen Square, and 
later became a house church pastor. In 1996, authorities 
arrested and imprisoned Pastor Fu and his wife for their work. 
After their release, they escaped to the United States and in 
2002 he founded ChinaAid Association.
    ChinaAid monitors and reports on religious freedom in China 
and provides a forum for discussion among experts in religion, 
law, and human rights in China. Pastor Fu is frequently 
interviewed by media outlets around the world and has testified 
previously at U.S. congressional hearings and at hearings 
around the world. He has also appeared before the European 
Parliament and the United Nations.
    Pastor Fu holds a double bachelor's degree from the 
People's University and the Institute of Foreign Relations and 
has taught at the Beijing Communist Party School. In the United 
States, he earned a Master's degree from Westminster 
Theological Seminary and is now working on his Ph.D.
    We will then hear from Ms. Rebiya Kadeer, who is a 
prominent human rights advocate and leader of the Uyghur 
people. She is the mother of 11 children and a former 
laundress-turned-millionaire. She spent six years--six years--
in a China prison for standing up to the authoritarian Chinese 
Government. Before her arrest in 1999, she was a well-known 
Uyghur businesswoman and at one time among the wealthiest 
individuals in the People's Republic of China.
    Ms. Kadeer has been actively campaigning for the human 
rights of the Uyghur people since her release in 2005. She was 
nominated to receive the Nobel Peace Prize several times since 
2006.
    Despite Chinese Government efforts to discredit her, Ms. 
Kadeer remains the pro-democracy Uyghur leader and head of the 
World Uyghur Congress, which represents the collective 
interests of the Uyghur people in the world.
    We will then hear from Mr. Losang Gyatso, who is the 
service chief of Voice of America's Tibetan Service which 
broadcasts news and information into Tibet and is arguably the 
most influential and trusted source of information for the 
Tibetan people.
    Before joining VOA, Mr. Gyatso was a founding director of 
mechakgallery.com, a non-profit group promoting contemporary 
Tibetan art through exhibitions, publications, and social 
media.
    Prior to that while working as an advertising executive in 
New York City in the 1980s and 1990s, Mr. Gyatso was a Tibetan 
community organizer and one of the most prolific graphic 
designers for projects carried out by groups such as the 
International Campaign for Tibet, Students for a Free Tibet, 
and Tibetan Center for Human Rights and Democracy. Thank you 
for your extraordinary work.
    I would like to now turn to Ms. Lin for her testimony.

   STATEMENT OF ANASTASIA LIN, HUMAN RIGHTS ACTIVIST AND THE 
                   CURRENT MISS WORLD CANADA

    Ms. Lin. Thank you, Mr. Chairman, and thank you to the 
Congressional-Executive Commission on China for convening this 
event.
    My name is Anastasia Lin. I am a Canadian actress. I will 
be representing Canada at the 2015 Miss World competition in 
Sanya, China. At least, that is my hope. Recent events leave me 
worried for my family who are still in China.
    I campaigned for the title Miss World Canada on a human 
rights platform. I wanted to speak for those in China who are 
beaten, burned, electrocuted for holding their beliefs, people 
in prison who eat rotten food with blistered fingers because 
they dared to have convictions. These are not criminals, these 
are people who believe in truthfulness, compassion, and 
tolerance.
    When I was crowned Miss World Canada my father was very 
proud of me, but within days his tone changed. He told me to 
stop my advocacy or he would sever contact with me. I 
understand he was visited by the Chinese security agents and 
forced to say these things to me.
    I have taken on roles in film and television shows that 
depict human rights abuses in China, and to prepare I speak 
with those who have suffered, including Falun Gong 
practitioners.
    In ``The Bleeding Edge,'' a film to be released this 
winter, I played one such woman. She is in prison and tortured. 
In one scene, her family is brought before her, made to kneel 
and beg her to give up her beliefs. This is the region's policy 
of guilt by association and this is why my father was 
threatened by the security forces, never mind that I am a 
Canadian citizen, upholding Canadian values on the other side 
of the world.
    It is a shock to realize that the man who made you feel 
safe is in danger. I had to choose between silence and my hope 
for a better China. Then I remembered, silence helps no one. 
Silence feeds terror.
    Practitioners of Falun Gong who have been marginalized, 
defamed, and vilified in China since 1999 are noble people. 
Despite the constant threat of arbitrary torture, psychiatric 
abuse, or death, they are steadfast in their principles. They 
have always sought peaceful means to resist persecution and 
generate awareness.
    In China today, our traditional values are buried under the 
mortal scars of endless political campaigns. Material wealth 
and the pursuit of self-interest are foremost in people's 
minds. The courage of Falun Gong practitioners and other 
dissidents and human rights lawyers are exceptions that give me 
hope for China's future. Yet, it is these people that suffer 
the most, people with stories of courage and tragedy, like the 
father of my fellow Canadian Paul Li.
    The elder Mr. Li is 60 years old and lives in Chengdu, 
China. Once a highly respected county magistrate, he is now 
beginning his second eight-year prison sentence. He was a 
rarity in China, a high official that did not use his position 
to gain wealth or personal advantage, and instead he followed 
Falun Gong's teachings of truthfulness, compassion, and 
tolerance and sought to be fair in his dealings.
    Mr. Li spent his first eight years in prison for writing 
essays criticizing the Communist Party's crimes and they 
tortured him and tried to get him to renounce his relief and 
embrace atheism. They made him blind in one eye.
    He did not give up. After being released, he exposed cases 
of torture and abuse and that was why he was again arrested and 
sentenced to another eight years this April. This is a story of 
incredible courage, almost completely ignored by the world's 
media. There are millions of such stories.
    Thousands continue to be sentenced to prison every year, 
often after show trials. Lawyers who represent Falun Gong 
practitioners, including those lawyers targeted in the most 
recent crackdown, have faced disbarment, beating, and 
imprisonment. The current crackdown on lawyers targets these 
individuals and comes as some 80,0000 criminal complaints are 
filed against the former Party leader, Jiang Zemin, by Falun 
Gong practitioners.
    The persecution of Falun Gong is widespread and brutal. In 
1998, the Chinese Communist Government estimated there were 70 
million practitioners of Falun Gong in China. Since the 
persecution began in 1999, millions have been imprisoned, 
tortured, and sexually assaulted. Estimates of the murdered 
range widely because information is scarce, and exposing the 
persecution is punished severely.
    While we have the names and stories of the some 3,800 
practitioners who have been killed in the persecution, multiple 
independent investigators estimate that tens of thousands have 
been killed so their vital organs could be harvested and sold 
for organ transplantation, a lucrative business in China.
    This is a gruesome and unspeakable crime that has created 
profit for those brutal persecutors. The victims did not do 
anything wrong. They are people of faith and morality. They are 
people that any country would be fortunate to have. These are 
the people of integrity that China so desperately needs 
nowadays.
    Mr. Chairman, I hope that, together, we can gain the 
Chinese people a voice. The hope for a better future lies in 
the people there gaining the freedom to believe what they want 
and talk to whoever they want to talk to about whatever they 
want to talk about. I hope this can happen soon. For myself, 
this would give me back a father, but for many others, it would 
save their lives.
    Thank you very much.
    [The prepared statement of Ms. Lin appears in the 
appendix.]
    Chairman Smith. Thank you so very much, Ms. Lin, for your 
very eloquent and incisive testimony, and done so with such 
kindness even toward the persecutors.
    I would like to know recognize Bob Fu, and as I do, remind 
my colleagues, when Frank Wolf and I went and visited China 
right before the Olympics we had a human rights agenda, 
obviously, that we were promoting.
    We called Bob Fu from the U.S. Embassy van and mentioned 
that--and it was tongue-in-cheek--that we might go to Tiananmen 
Square and unfurl a banner that says ``Respect Human Rights.''
    Within 20 to 25 minutes, our embassy got a phone call from 
the Chinese Foreign Affairs Department saying that we would be 
escorted out of the country or arrested if we proceeded with 
that, and this was just in a phone call from ourselves to Bob 
Fu. Maybe the van, maybe the phone call was bugged. On that 
trip, Bob had set up for us to meet with a number of house 
pastors, Christian house pastors.
    All but one were stopped by the government, and the one man 
and his family that we met with was arrested afterward and put 
through a withering time with the secret policy, again 
underscoring, just as with the Falun Gong and all the others, 
and we will hear from the others momentarily, but the 
repression based on the best information, as bad as it was 
then, it is even worse now.
    Pastor Bob Fu?

     STATEMENT OF BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Thank you, Chairman Smith, for your unwavering 
leadership and solidarity with those who are persecuted in 
China and all over the world. I also thank the Cochair, Senator 
Rubio, and thank all the members, Congressman Walz and 
Congressman Hultgren, who are demonstrating their support, your 
support, for this honorable cause.
    This is the third year of President Xi Jinping's 
administration in China, whose policies and actions have raised 
increasing alarm, and in some cases have astonished the 
international community. Domestically, Mr. Xi has approached 
his political rivals through a selective anti-corruption 
campaign and monopolized power within the leadership of the 
Communist Party, the government, and the military.
    On foreign policy, Mr. Xi has adopted a dangerous and 
aggressive agenda, challenging existing international law and 
creating his own when deemed necessary, including the National 
Security Law, which has been viewed by many as a pretext for 
human rights abuses.
    This antagonistic and arrogant approach to governance over 
the past two and a half years has earned Xi the nickname 
``Chairman Mao, Jr.,'' or ``Xitler.'' In the past two years, 
the human rights and rule of law in China have rapidly 
deteriorated.
    The number of dissidents taken into police custody, 
arrested, and convicted since Xi took power has exceeded the 
total number that occurred during the 10-year reign of 
President Hu Jintao and Premier Wen Jiabao. Chinese citizens 
who peacefully criticize the 
government or defend the rights of citizens, lawyers who dare 
to represent so-called ``sensitive cases'' without cooperating 
with the government, and activists who assemble in a peaceful 
manner to attempt to request the government's permission to 
establish an NGO or peacefully protest against government 
policies or judicial injustice, even to gather for a meal, are 
subsequently invited to drink tea, summoned for interrogation, 
detained, or arrested and eventually tried in a corrupt 
judicial system.
    To be sure, the Chinese Government has intensified its 
harassment of NGOs, civil society organizations, law firms 
representing human rights cases, charitable organizations, and 
political organizations such as the New Citizen Movement.
    During the Xi administration, and particularly in the past 
18 months, religious freedom abuses have reached a level not 
seen since the Cultural Revolution. Not only have house 
churches continued to experience intensifying persecution, but 
now the government-sanctioned Three-Self churches are being 
subjected to government-sponsored persecution and campaigns.
    The Chinese Government's persecution of Tibetan Buddhists, 
Uyghur Muslims, and Falun Gong practitioners, as my fellow 
witnesses will and have testified, has also increasingly 
worsened. The Chinese Government perceives that religious 
practitioners are being guided by so-called foreign influence 
and has subsequently pursued absolute control over religious 
communities.
    This new so-called National Security Law that just took 
effect on July 1 has expanded the management, oversight, and 
suppression of religious activity under the guise of so-called 
national security.
    So, I will talk about religious freedom and human rights 
and rule of law in China, specifically focused on the forced 
demolition of churches and crosses in Zhejiang province and 
ongoing persecution of house churches and the torment and 
treatment of human rights lawyers and human rights defenders in 
China.
    Then, I will offer some recommendations for the U.S. 
foreign policy on China, and I want to request the Chair to 
agree for both our annual report and my written testimony to be 
on the record.
    Chairman Smith. Without objection, all of that, and any 
additional remarks or materials the other witnesses would like 
to have included will be made a part of the record.
    Mr. Fu. Thank you.
    The forced demolition of church crosses. In the past year, 
the government of Zhejiang province has demolished churches and 
crosses under the pretext of implementing standards for 
buildings and initially people thought it was maybe just a 
local eradication of some buildings based on the building 
codes.
    But up until today, we have documented over 1,500 churches 
that had their crosses forcibly removed, and a number of 
pastors and believers have been beaten up and some pastors are 
even sentenced to criminal imprisonment for defending the 
crosses.
    According to the information we have collected at least--
besides the government-sanctioned churches, which is more than 
1,500 with their crosses being removed by force, or some of the 
churches, the whole buildings were totally destroyed--at least 
50 other house churches in rural areas were also destroyed or 
their crosses were forcibly removed.
    I think we have a few photos, if you could show these 
photos. You can tell, some of the churches are being demolished 
as late as yesterday morning. The crosses were even burned from 
the top of the church building.
    Yesterday at a large church, their cross was being forcibly 
removed. This morning, more than 44 churches had issued a joint 
declaration, basically denouncing the government's evil act of 
forceful removal of crosses, and made a commitment to defend 
their crosses from being removed. A number of Chinese human 
rights lawyers were also called to help those churches, so some 
of the lawyers are still in Zhejiang province.
    This morning, according to a BBC report, there are a few 
hundred churches in Guangdong province that have received 
official notice that they are to be shut down. So, apparently 
this campaign has already expanded into Guangdong province.
    Also this morning, honorable members of this commission, in 
Guangzhou city, a church called Guangfu Church was raided by 50 
public security officers; the pastor's wife and three other 
senior leaders of the church were taken into custody.
    So, these kinds of barbaric acts of just demolishing 
churches and destroying the peaceful symbol of Christian faith, 
not only to the Protestant churches, but to Catholic churches 
as well, demands and warrants a unanimous condemnation by the 
international community.
    Notably, even the government, the Chinese Catholic 
Patriotic Association of Zhejiang, and the Chinese Catholic 
Bishops Conference of Zhejiang, and the Chinese Christian 
Council, all sent official letters to the government agencies 
protesting and basically denouncing this barbaric act and 
urging the government to stop this kind of destruction.
    This is an unprecedented, of course, rebuke from those 
government-controlled religious institutions, and it certainly 
reflects the millions of believers' mindset that I think it 
could trigger more unrest, as contrary to the Communist 
government's intention.
    Of course, the persecution against the house churches with 
a secret document in 2011 that we obtained, mandates the 
eradication of all house churches within 10 years. In the past 
18 months, we have seen a continued, systematic campaign that 
increased both the number of the persecutions of the house 
churches, and also the number of arrests has been dramatically 
worsened.
    So, in reviewing religious freedom abuses perpetrated 
against the house church during both the 2014 and 2015 years, 
the following characteristics emerged: The abuse of 
administrative penalties and regulations regarding the length 
of administrative or criminal detention of church members and 
leaders, persecuting churches and church members under the 
guise of so-called eradicating cults and confiscating house 
church possessions, religious materials, including bibles and 
other scriptures, and banning and harassing Sunday schools, and 
even the church-managed kindergartens.
    Like in Guangxi province, four leaders of the kindergarten 
teachers were given a criminal sentence this year for just 
teaching the children about character building. That is it. 
They received a two-to-three-year criminal sentence just for 
managing that kindergarten school.
    As the Chairman just mentioned, since July 10, the 
government initiated this sudden campaign against human rights 
lawyers. This happened in spite of the number of arrests 
against other prominent human rights lawyers, including Pu 
Zhiqiang, including the NGO leader Guo Yushan, including human 
rights lawyer Xu Zhiyong, and Hu Shigen, including, of course, 
the human rights defender and journalist, 71-year-old Ms. Gao 
Yu.
    This new wave of attacks against human rights lawyers and 
human rights defenders really proves that the Xi Jinping 
administration has no intention--no intention at all--to obey 
its own law, let alone international law.
    These human rights defenders, they courageously not only 
defend abuses of the house churches and Catholic churches, but 
also they are the defenders for Falun Gong practitioners and 
political dissidents and Tibetans, persecuted Muslims, and 
human rights advocates. So, they are labeled as subversives or 
some are said to be causing trouble.
    I will give you another example that happened in March 
2014, when a group of human rights lawyers--Tang Jitian, Jiang 
Tianyong, Wang Cheng, Zhang Junjie, and nine family members of 
their clients who are Falun Gong practitioners--in 
Jiansanjiang, Heilongiang province, when they just visited 
there, tried to just ask the whereabouts of their clients.
    All these human rights defenders and family members were 
detained and were abused physically, and the four detained 
human rights lawyers were beaten and tortured, resulting in 
collectively having 24 of their ribs broken, and some of them 
are still kind of receiving medical treatment. So, this is just 
one of the incidents that has happened in the past year.
    This morning, Chairman Smith, there was a case in Guangzhou 
involving three bold human rights defenders. They are a 
Christian human rights lawyer Tang Jingling, Yuan Xinting, and 
Wang Qingying. They are human rights defenders.
    So, for simply holding a banner in front of a government 
building demanding freedom of speech, this morning their trial 
just started, and several of the lawyers have been arrested, 
including lawyer Sui Muqing, who is one of the victims of this 
July 10 raid.
    So, as of this morning, we learned just over 246 human 
rights lawyers and advocates and legal professionals have 
either been interrogated, detained, or have gone missing into 
police custody, of which 11 human rights lawyers and 3 human 
rights advocates have been criminally detained and 6 remain 
missing.
    I received a note from one of the missing human rights 
lawyers with whom Congressman Smith has met, attorney Li 
Heping. His wife just sent a note this morning saying that she 
had to send off her 13-year-old son to her hometown in a rural 
area, away from Beijing.
    She basically said this 13-year-old boy, witnessing on July 
10 when her home was raided and his father, attorney Li Heping 
was taken away in front of this 13-year-old, with another 
little girl, so she said despite her reluctance to send her son 
away, she just prayed that being in a rural area, maybe that 
could protect their 13-year-old son from being further 
harassed.
    The 16-year-old son of the other two human rights lawyers, 
lawyer Ms. Wang Yu and her husband attorney Bao Longjun, and 
their 16-year-old son Bao Mengmeng, on July 9, he was just on 
the way to go to study in Australia.
    Then, after the public security officers abruptly just 
kidnapped his father and also this 16-year-old son and 
separated them and put him in detention for 48 hours, now today 
they forced this boy to move from Tianjin city, his hometown, 
to Inner Mongolia. He was already summoned three times for 
interrogation.
    I have a 16-year-old daughter. Actually, I brought her with 
me today. As a father, how do you feel that when you are 
together and suddenly a group of strangers, by force, grab the 
father away for already 11 days? Nobody knows where the father 
or the mother is being detained.
    Their lawyers are not able to find out anything. So this 
new wave of campaign, once again, shows that it is almost the 
government that became part of a Mafia-style, to arbitrarily 
force the disappearance and kidnapping of these human rights 
lawyers. They are the backbone of China's rule of law, and they 
are the defenders, and they should be rewarded for their 
action, as Chairman Smith made the statement on July 10 right 
after this happened.
    So I want to make a few recommendations, finally.
    Chairman Smith. Pastor Fu, could we get back to that after 
we get through all the others?
    Mr. Fu. Yes.
    Chairman Smith. Just in the interest of time.
    Mr. Fu. Yes.
    Chairman Smith. Marco Rubio will be here momentarily and I 
am sure he will want to hear those recommendations.
    Mr. Fu. Yes.
    Chairman Smith. I would like to now yield and recognize 
Rebiya Kadeer.
    [The annual report of ChinaAid and the prepared statement 
of Mr. Fu appear in the appendix.]

  STATEMENT OF REBIYA KADEER, PRESIDENT, WORLD UYGHUR CONGRESS

    Ms. Kadeer. I would like to express my deep appreciation to 
Congressman Smith for the invitation to speak here today. It is 
my honor to discuss religious persecution of the Uyghur in 
China.
    The situation of the Uyghur Muslim is not getting any 
better because of our strong belief in Islam and the Chinese 
Government's repression is only getting worse. So I believe 
this hearing is very timely to discuss the religious 
persecution of all groups represented here today. To save time, 
I will have my special assistant to read my written statement.
    I am very honored to be here today and I wish to express my 
profound appreciation to Representative Chris Smith and Senator 
Marco Rubio for inviting me to testify today. I also want to 
thank other CECC Commissioners for their strong support of 
religious freedom in China.
    The Uyghur people perceive their belief in Islam not only 
as a personal expression of faith, but also as a statement of 
their cultural distinctiveness from China's mainstream 
Communist, atheist, and materialistic culture. For many 
Uyghurs, the incursion of the Chinese state into this private 
aspect of their lives and the role it plays in establishing a 
broader, new identify for them is viewed as part of China's 
assimilative process or a form of cultural genocide.
    In East Turkistan, the two-fold implementation of strict 
national and regional regulations concerning religious belief 
and practice mean the Uyghur people are subject to the harshest 
conditions governing religious life in China.
    This occurs even though China's domestic laws, such as the 
Constitution and the Regional Ethnic Autonomy Law, guarantee 
religious freedom. Rather than simply forbid religious practice 
of the Uyghur people, Chinese authorities have implemented 
regulations that progressively narrow the definition of lawful 
activity.
    As a result, many Uyghurs often discover traditional, 
normal religious customs are increasingly not permitted. 
However, Chinese officials justify many of the restrictions 
through claims that outlawed practices have been imported from 
overseas and that it faces an organized threat to public 
security in the form of the ``three evil forces'' of terrorism, 
separatism, and religious extremism.
    China's highly politicized criminal legal system, as well 
as the state apparatus governing and monitoring religion, have 
insured that government is the ultimate arbiter in the 
interpretation of religious affairs. In fact, the bodies 
established by the Chinese state to oversee administration in 
China do little to protect religious believers, but assist the 
government's repression of religious freedom by helping to 
formulate and promote restrictive regulations.
    Uyghur religious leaders, such as imams, are required to 
attend annual political indoctrination classes to ensure 
compliance with Chinese Communist Party regulations and 
policies. Only state-approved versions of the Koran, the Holy 
Book of Islam, and the sermons are permitted, with all 
unapproved religious texts treated as illegal publications 
liable to confiscation and criminal charges against whoever was 
found in possession of them.
    Any outward expression of faith in government workplaces, 
hospitals, and some private businesses, such as men wearing 
beards or women wearing head scarves, is forbidden. No state 
employees or no one under the age of 18 can enter a mosque, a 
measure not enforced in the rest of China. Organized private 
religious education is proscribed and facilitators of private 
classes in Islam are frequently charged with conducting illegal 
religious activities.
    Students, teachers, government workers are prohibited from 
fasting during Ramadan, the holy month of Islam. In addition, 
Uyghurs are not permitted to undertake Hajj, which is 
pilgrimage, unless it is with an expensive official government 
tour in which state officials carefully vet Uyghur applicants.
    Uyghurs found to have contravened religious regulations are 
punished severely. In a disturbing number of cases, Uyghurs 
have been given long prison sentences for illegal religious 
activities for actions considered normal by international human 
rights standards.
    For example, in East Turkistan today police can stop any 
Uyghur at any time to check their mobile phones for religious 
content. If the police deem such religious content as illegal, 
the Uyghur can be arrested on the spot. An area of considerable 
concern is also the open discrimination against Uyghur 
religious believers, especially women, who choose to lead 
religious lives publicly.
    In 2015, the restrictions placed on Uyghurs' ability to 
observe Ramadan fasts were widely reported. As detailed by the 
overseas media, government work units outrightly denied Uyghurs 
the right to follow their religious customs. For example, 
middle schools in Bortala, Tarbaghatay and Tumshuq informed 
their employees and students that they were not permitted to 
fast.
    In Jing county, restaurant owners were mandated by the 
local Food and Drug Administration to remain open during 
fasting hours and some were even forced to sell alcohol and 
tobacco products, which were against their religious faith.
    Reports also surfaced on social media that Uyghurs were 
being compelled to eat watermelon in public to demonstrate non-
observance of the fast. Although these reports remain 
unconfirmed, they are consistent with numerous accounts I have 
heard from Uyghurs, particularly students, who were required to 
drink water at school in front of their teachers to prove they 
were not fasting, but were following school and local 
government regulations.
    Ramadan, in 2015, was particularly tense and harsh for the 
Uyghur people. In an article dated June 24, 2015, Radio Free 
Asia described how government workers were being put on alert 
prior to the holy month. Their report was an alarming 
indication of the suspicion with which the state views Uyghurs 
who continue with their religious practices.
    Furthermore, according to Radio Free Asia, one county 
issued guidelines calling for intrusive searches of convenience 
stores, repair shops, and mosques. These restrictions create an 
atmosphere of distrust and fear.
    However, 2015 witnessed provocations against the Islamic 
faith previously not seen. Reports that a beer drinking 
festival had been organized in Niya, a predominantly Uyghur 
settlement, on the eve of Ramadan. It was a humiliation of the 
Islamic faith and an attack on the Uyghur people's belief.
    A report published by Human Rights Watch in 2005 described 
the close relationship between the Uyghur identity and Islam. 
The authors of the report accurately state Islam is perceived 
as a fading Uyghur ethnic identity and so the subordination of 
Islam to the state is used as a means to ensure the 
subordination of the Uyghur people as well.
    A report issued by the Uyghur Human Rights Project [UHRP] 
in 2013 found a sharp deterioration in Uyghur religious rights 
in the period following 2005. Since the publication of the UHRP 
report, in April of 2013 the abuse of China's denial of 
Uyghurs' rights to freedom of religion has not abated.
    The increased repression of religious practices and belief 
under way corresponds with Chinese President Xi Jinping's 
determination to implement a major strategic shift in East 
Turkistan that prioritizes security policies in the region.
    State rhetoric regarding the tightening of security is 
often accompanied by crackdowns on the so-called ``three evil 
forces,'' which frequently target peaceful religious expression 
of the Uyghur people.
    A trip to East Turkistan by Xi Jinping concluded on April 
30, 2014, reinforced the call for enhanced security measures. 
Xi visited People's Liberation Army soldiers and the People's 
Armed Police in Kashgar, a Uyghur-majority city, that he 
claimed was the front line of counterterrorism.
    Radio Free Asia reported a series of cases involving limits 
placed on Uyghur religious expression across East Turkistan in 
2013 and 2014, including Balaqsu near Kashgar in May 2013, 
Beshtugmen in Igerchi near Aksu city in May 2013, Uchturpan in 
Aksu prefecture in August 2013, Shihezi in November 2013, 
Turpan in April 2014.
    In April 2014, the fourth extension to an original 12-year 
jail term handed down to Uyghur religious leader Abdukiram 
Abduveli, in an extraordinary move, the harshness of the 
religious policies prompted a Uyghur delegate to China's 
People's Consultative Conference to speak up during a March 
2014 session.
    Further signs that regulations governing religion hardened 
since Xi's announcement is an April 2014 notice issued by the 
Chinese Communist Party committee of Qartal Bazaar in Aksu city 
regarding the holding of an unlawful funeral ceremony for 
Uyghur cadre Nurdin Turdi, a loyal Party official, 
distinguished actually by the state.
    The notes widely circulated on social media said that as 
Nurdin Turdi's funeral was held at the mosque and not at his 
home, his family was in contravention of regulations on 
funerals for individuals holding Turdi's status.
    As a consequence of the infraction, the funeral fees 
normally paid by the state to such individuals were rescinded, 
six months of benefits for the family were withheld. 
Customarily, the state used to permit Islamic burials for any 
Uyghur who wished to have one in the past.
    Prior to Ramadan 2015, reports surfaced of the harsh 
sentencing of a Uyghur man from Kashgar to six years in jail 
because he had grown a beard, in accordance with his religious 
beliefs. The man's wife was handed a two-year sentence for 
veiling herself. The ban on Islamic veiling in Urumqi in 2015 
was described by scholars James Leibold and Timothy Grose as 
``a sign of a deepening rift of mistrust between the Uyghurs 
and the Han-dominated Communist Party.''
    Universal religious freedom is protected under Article 18 
of the normative human rights standards outlined in the 
Universal Declaration of Human Rights and other international 
instruments whose standards China is obliged to meet, and also 
ensure the right of religious freedom, such as the Convention 
on the Rights of the Child and the Convention on the 
Elimination of All Forms of Discrimination against Women.
    China's domestic laws, such as the Constitution and the 
Regional Ethnic Autonomy Law, have strong provisions on freedom 
of religious belief. Despite the international and domestic 
legal framework, restrictions on religious freedom are deemed 
lawful by Chinese authorities through the strict implementation 
of regulations that contradict China's own laws and 
international obligations.
    Thank you.
    Chairman Smith. Thank you very much, Ms. Kadeer, for your 
testimony and leadership.
    Mr. Gyatso?

  STATEMENT OF LOSANG GYATSO, TIBETAN SERVICE CHIEF, VOICE OF 
                            AMERICA

    Mr. Gyatso. Thank you, Chairman Smith. Thank you to the 
Commission for inviting me. I would just like to clarify that I 
am not a practicing activist. I am here as an engaged Tibetan 
and as Service Chief of Voice of America's [VOA] Tibetan 
language service. I am here to provide a sense of what is 
happening in Tibet today and to put it in the context of 
Chinese policies and actions in Tibet over the last 50, 60 
years.
    I have four images to show you. It will be in the first two 
or three minutes. As I hold them up, it will be a signal for 
you to view it on the screen over there.
    Since problems facing religion, religious institutions, and 
religious teachers in Tibet is widely known and well-documented 
by this Commission and many other governmental and non-
governmental organizations in the United States and abroad, I 
will not take up too much of your time going over too many 
examples.
    I would like to, however, touch on two events that took 
place this month which may serve to highlight the degree to 
which the Chinese Communist Party is willing to carry out 
actions that cause enormous suffering for Tibetans, and that 
create an environment of oppression in monasteries and in the 
personal lives of Tibetans that have triggered the self-
immolation protests by over 140 Tibetans since 2009.
    The latest such protest took place on the afternoon of July 
9, two weeks ago. A young monk named Sonam Topgyal set himself 
on fire at a public square in Kyegudo, the prefectural capital 
of what China today refers to as the Yulshul Tibetan Autonomous 
Prefecture in Qinghai province.
    Photos and videos showing Sonam Topgyal on the ground in 
flames have emerged since then and once again, as in many 
previous such cases, Sonam Topgyal was taken from the site by 
Chinese security and is believed to have died at a hospital.
    A note he wrote one week earlier has surfaced, and in it he 
says, ``I am the 27-year-old son of Tashitsang of Nangchen, 
Yulshul, in Tsongon region,'' referring to his hometown and the 
region with the traditional Tibetan geographic designation.
    He continues, ``Currently, I am a monk studying in Dzongsar 
Institute. As people within the country and outside are aware, 
the Chinese Government does not look at the true and real 
situation of the minorities, but practices only harsh and 
repressive policies on them. At a time when the government is 
carrying out policies to stamp out our religion, tradition, and 
culture and destroy our natural environment, there is 
absolutely no freedom of expression for the people and there is 
no channel to appeal our situation.''
    The other development this month which has been 
particularly difficult for Tibetans is the prison death of a 
widely respected lama and political prisoner on July 12, 11 
days ago. Tenzin Deleg Rinpoche's family and monastic community 
had not been allowed to see him since 2013, and were not 
allowed to see him on the day that Chinese authorities claim he 
died of a heart attack, nor for several more days as they 
pleaded to have his body returned to them in order to conduct a 
funeral fitting for a high lama.
    Tibetans pleading for the return of his body were beaten 
severely by security forces on July 13, 10 days ago, in Nyagchu 
county, Sichuan province. Several days after the announcement 
of his death, his family and some monks were allowed to see his 
body in the detention center, where he was incinerated in the 
prison crematorium against their wishes.
    The Chinese have been in Tibet since 1951, long enough to 
understand that a prison cremation for a highly regarded 
spiritual teacher will be seen by Tibetans as a humiliating and 
degrading act, and therefore understand it to be an added 
punishment for those who had been pleading his innocence for 13 
years, and then pleading for his remains after his death.
    Further troubling is the fact that his sister and niece 
have gone missing since July 17. A relative of Rinpoche living 
in exile that VOA interviewed, suspected that the two women had 
been detained for possibly persisting in demanding a proper 
investigation into his sudden death.
    On July 14, nine days ago, House Members at a hearing on 
Tibet by the Tom Lantos Human Rights Commission had urged the 
Chinese authorities to return the body of Tenzin Deleg Rinpoche 
to his family members. As far back as 2004, the U.S. Senate 
passed a resolution by unanimous consent, calling for 
Rinpoche's release. Both calls have gone unheeded.
    Tenzin Deleg Rinpoche's story is neither unique nor rare 
when you look back over the last six decades of Chinese rule of 
Tibet. Today, there are many known and probably many, many more 
unknown Tibetans languishing in China's prisons for simply 
expressing their dissent with the oppressive rules and 
regulations governing Tibetan lives and the institutions and 
figures of Tibetan Buddhism.
    Writers and artists are imprisoned for simply writing or 
singing about their love of Tibet's mountains and lakes, 
culture and history. Many more are detained for refusing to 
denounce their religious heads, such as the Dalai Lama, during 
reeducation campaigns at temples and monasteries. All of the 
above seemingly innocuous acts can today be categorized as 
separatist acts according to recent regulations targeting 
Tibetans.
    Once imprisoned, the Tibetans are accused of acting at the 
instigation of the Dalai Lama and/or foreign anti-China forces, 
by which most Tibetans understand the Chinese to mean the 
United States, and are then subjected to torture and prolonged 
mistreatment with the sole purpose of extracting confessions 
that correspond to the accusations.
    This process, repeated across Tibet for 50 years, has 
created immeasurable suffering for the Tibetan people and 
deeply disturbed their psychological well-being for decades. As 
I mentioned earlier, the Chinese Government's attack on 
religion and religious institutions and figures in Tibet is not 
a recent development, nor are they random aberrations in their 
rule of Tibet since 1951. The Chinese Communist Party has been 
purposefully and methodically working to dismantle the very 
fabric of Tibetan spirituality and religious tradition since 
1955.
    Between 1955 and 1968, almost every single religious 
institution in Tibet, estimated to number over 6,000 
monasteries and temples, many of them a 1,000 years, 500 years 
old, had been aerial bombed, artillery shelled, and razed to 
the ground. Tens of thousands of lamas, religious teachers, 
monks, and nuns were imprisoned, executed, or disrobed.
    Public humiliation and torturing of respected reincarnated 
lamas, often to death, took place across Tibet in the 1950s and 
1960s in order to ridicule religion and to prove that religious 
figures were powerless.
    Attacks on religion during that period was the reason why 
all of the heads of the major schools of Tibetan Buddhism, all 
five heads, went into exile in 1959 before the fall of the 
Tibetan Government and remain so to this day.
    The highest ranking lama remaining inside Tibet in 1959 was 
the Panchen Lama. He spent 13 years in solitary prison for 
speaking against what the Chinese had done in Tibet up to 1961. 
After his sudden death in 1989, the Chinese installed their own 
choice of his reincarnation, a child whose parents were Party 
members, Chinese Communist Party members. The child that was 
selected by monks in the Panchen Lama's own monastery and 
approved by the Dalai Lama as is customary, was disappeared, 
along with his entire family in May 1995 and has not been heard 
of since then.
    In 2007, China's State Administration for Religious Affairs 
introduced measures that dictate which Tibetan religious 
figures may or may not reincarnate, and the requirement for the 
approval of selected reincarnated lamas by offices under the 
Communist Party. While this may appear simply surreal and 
bizarre to most people, there are two very serious possible 
consequences from these measures; one that will even further 
diminish human rights in Tibet, and the other that will impact 
the state of religious institutions and the very existence of 
religious practice as we know it in Tibet.
    First, since nearly all expressions critical of conditions 
in Tibet, and/or, in praise of aspects of Tibetan culture and 
identity can be categorized as ``separatist'' activities that 
are punishable acts today, the following sentence in the 
measure, ``living Buddha reincarnations should respect and 
protect the principles of the unification of the state,'' would 
mean that all officially sanctioned reincarnated lamas and the 
religious institutions affiliated with them, would be forced 
into silence on issues relating to human rights and the state 
of religious and cultural freedoms in Tibet.
    And second, and this may not be fully appreciated by many 
people at present, the interference by the Communist Party in 
the selection or de-selection of reincarnated spiritual masters 
undermines Tibetan Buddhism at its most fundamental level by 
aiming to break the trust and faith that Tibetans have invested 
in their lamas for hundreds of years.
    Tibetan Buddhist practice, based on ancient Indian 
traditions, holds at its very core the sacred relationship 
between religious teachers with pure and direct spiritual 
lineages, many that go back 1,000 years, and the student 
practitioners who take vows, initiations, and meditation 
instructions from them. The successful guidance through complex 
psychological states and through layers of consciousness in the 
course of a person's spiritual practice relies completely on 
this connection between trusted and respected reincarnated 
lamas and their followers.
    The measures to control reincarnated lamas is therefore 
aimed at this bedrock of Tibetan religious practice and could 
lead to the destruction of thousands of unbroken spiritual 
lineages of the lamas, and to the eventual demise of Tibetan 
Buddhism as it has been practiced since the 13th century when 
the reincarnation system was initiated in Tibet. As an example 
and on a much more mundane level, it is as if a government 
decided that it would select people to practice medicine, 
surgery, and psychiatry, based not on their qualifications and 
background, but on their political leaning. You can imagine 
what this would do to the state of healthcare.
    These are just a few examples of how persecution of 
religion and religious institutions and figures in Tibet are an 
ongoing feature of Chinese rule of Tibet, and they are posing 
existential challenges for Tibetans in maintaining intellectual 
rigor and spiritual vitality in the monasteries and temples 
across Tibet.
    The Dalai Lama says in his autobiography that in one of his 
meetings with Chairman Mao in 1954, Mao turned to him, leaned 
forward, and said, ``Religion is poison.'' That view appears to 
have been, and continues to be, the guiding principle of 
Chinese rule in Tibet, where its policies since 1955 have gone 
from destroying religion completely, to today, where a small 
number of monitored monasteries and controlled religious 
figures are allowed to exist as a show of the government's 
tolerance for religion and as tourist attractions, while in 
reality, the monastic institutions and the system of 
reincarnated lamas is being controlled and used purely for the 
perpetuation of China's control of Tibet.
    Thank you.
    Chairman Smith. Mr. Gyatso, thank you very much for your 
very comprehensive and incisive testimony.
    We are joined by Senator Marco Rubio, who was in, and 
probably has to go back to, a hearing that is on the Iran 
nuclear deal as a member of the Foreign Relations Committee, a 
leader on that committee. Secretary Kerry is testifying, but I 
would like to yield to my good friend and colleague.

  STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA; 
    COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Rubio. I just want to thank you, and I want to 
thank all of you for being here for this important hearing. I 
do not have an extensive statement. Are we going to go into the 
question period?
    Chairman Smith. Yes.
    Senator Rubio. Yes. I just wanted to make a couple of 
points. I mean, we have all watched over the last two weeks as 
the Chinese Communist Party and its authorities have launched 
an unprecedented crackdown on human rights lawyers, on 
activists, the most severe since the legal system was 
reestablished after the Cultural Revolution.
    To date, there has been over--that we know of--200 people 
detained, questioned, reported missing. So I think this hearing 
today is timely, and in particular the focus on religious 
liberties, which there seems to be an amped-up effort to target 
those, whether it is the extensive cross removal campaign 
resulting in the destruction of hundreds of Chinese crosses, 
the Thai authorities forcibly repatriating Uyghur Muslims back 
to China, Tibetan Buddhists who have continued to set 
themselves on fire in desperation at the abuses of their 
people; it goes on and on.
    So I think this is an important opportunity to shed light 
on this extraordinary development that is going on in China, 
that the world seems largely either unaware of, or uninterested 
in, given all the other challenges that exist on this planet. I 
think it is one we need to continue to focus on and ensure that 
this country's foreign policy is one deeply and firmly anchored 
in moral clarity and human rights.
    So thank you for the opportunity to be a part of this 
hearing today, and I look forward to hearing from our 
witnesses. I apologize that I have to leave a few minutes 
early. We are in the middle of an Iran hearing. It is the only 
chance we will have to talk to Secretary Lew, Secretary Kerry, 
and Secretary Moniz on an important issue as well. But again, I 
wanted to come by for a few minutes and hopefully be able to 
ask some questions.
    I would love to, if I can go first. I appreciate your 
indulgence in that regard.
    So Mr. Gyatso, I want to begin with you. Do you think that 
a Chinese-appointed Dalai Lama is something that Tibetans would 
ever accept or eventually get used to?
    Mr. Gyatso. Thank you for that question. It is an extremely 
difficult and delicate subject for Tibetans. I think the 
clearest answer I can provide would be that there is actually 
an existing example of an imposition of an important lama 
inside Tibet, the Panchen Lama. The Panchen Lama, as I 
mentioned earlier, this current Panchen Lama, was imposed by 
the Chinese in 1996. The Panchen Lama that was recognized by 
his own monastery, and as customary, approved by the Dalai 
Lama, has been disappeared since 1996 to this day.
    The Chinese-appointed Panchen Lama has not received 
acceptance at all across Tibet. He has had trouble finding 
proper religious teachers who are willing to accept that role. 
He has had problems having monasteries that are willing to have 
him study in the institutions, and almost every aspect of his 
public appearances in Tibet have to be orchestrated and 
choreographed with people bussed in to greet him, et cetera. So 
I think that gives you a very small indication, although he is 
a lama of a smaller scope than the Dalai Lama, that acceptance 
of a Chinese-appointed Dalai Lama is not a viable option.
    Senator Rubio. And Mr. Fu, I wanted to ask you, what policy 
recommendations do you have for the U.S. Congress, for the 
executive branch, in terms of protecting religious freedom in 
China? How should the U.S. Government convey those concerns to 
Chinese officials in these high-level bilateral meetings?
    Mr. Fu. Thank you, Senator Rubio. Yes, I think the how 
part, at least I can give a few recommendations. First of all, 
I think given the fruitless years of U.S.-China human rights 
dialogue with China, I think I would really recommend the 
administration to cancel this kind of really useless, toothless 
human rights dialogue.
    I would also recommend that human rights should play a more 
central role instead during the annual U.S.-China Strategic and 
Economic Dialogue instead, including a review mechanism to 
ensure progress on human rights is made during each year's 
meeting.
    I also would urge Congress, both the House and Senate, to 
seriously pass the Global Magnitsky Act and the other Human 
Rights Protection Act sponsored by Congressman Smith, and I 
think that the mechanism, if passed by the Congress for the 
Global Magnitsky Act, would really give the true teeth to 
ensure, at least partially, those human rights abusers would be 
more hesitant to make further persecution.
    For instance, the latest campaign against human rights 
lawyers. And the Chinese Government admitted the central figure 
who orchestrated or laid this campaign is Minister Guo 
Shengkun. He is the Minister of Public Security, and he has 
contributed to this increasing crackdown, like the crackdown 
and forced removal of crosses in Zhejiang province.
    The Party secretary of Zhejiang, Mr. Xia Baolong, who has 
been the leading force for these latest abuses, although with 
the authorization and approval from President Xi Jinping. Mr. 
Xia Baolong and Mr. Guo Shengkun should clearly be put on the 
list at the State Department for the travel ban, banning them 
to travel to America. We can coordinate with the European 
allies to ban them as well.
    So these are some of the key recommendations I would give.
    Senator Rubio. And Ms. Lin, I wanted to ask you, you have 
documented that this has happened to you as well, how the 
Chinese Government often uses China-based family members of 
Chinese rights activists as leverage to get them to stop their 
work.
    Can you describe a little bit about it? I mean, you have 
written about it before, but is that an ongoing practice? How 
many people have you met that are affected by it, the idea that 
they use your relatives back in China as leverage against you 
to prevent you, or hopefully to convince you?
    Because I think it is amazing. I know it would be shocking 
to a lot of Americans to know that there are people living in 
this country, perhaps American citizens, who are being extorted 
and/or blackmailed through the safety or security of their own 
relatives back in China.
    Ms. Lin. Yes. I would say that this is a common experience 
of many Chinese overseas, including Chinese Canadians, Chinese 
Americans. It is a well-known fact among the community that the 
Chinese consulate would send people to watch over the Chinese.
    Religious freedom and human rights does not just affect 
people that are living in China, but every Chinese who still 
has loved ones there. I do not know what it feels like to be 
tortured by prison guards, but now I know the deep fear 
probably felt by many Chinese people that their convictions 
might be paid by their loved ones.
    But if we keep silent, there is no end to this kind of 
compromise. The Chinese people overseas need to speak up about 
this issue. Yes, we might be afraid, but courage is not always 
the absence of fear. To be courageous, is to know that 
something else is much more important than fear. To be able to 
live according to your conscience, for Falun Gong practitioners 
and other dissidents, it outweighs the fear of death. That is 
why I am going back to China. I hope my presence in that 
country would help those who are facing these unspeakable 
horrors, to preserve their hope a little longer. Thank you.
    Chairman Smith. Thank you.
    At my request, I would like to ask that Senator Rubio, we 
will suspend for about two minutes. If you would not mind 
saying hello. I know you could not get here because of the 
hearing and you are going back to the Iran hearing.
    Senator Rubio. I am just going to come down to say hello to 
everyone.
    Chairman Smith. That would be great.
    [Whereupon, at 12:26 p.m. the hearing was recessed.]

                              AFTER RECESS


                              [12:27 p.m.]


    Chairman Smith. Thank you, Cochair Senator Rubio. The 
hearing will now reconvene.
    Let me just ask a few questions. Again, your testimonies 
have been absolutely stellar and hopefully motivating, not just 
to the Congress and to the press and free peoples everywhere, 
but to the President and to the administration as well.
    When Pastor Fu says that in the past two years human rights 
and the rule of law in China have rapidly deteriorated, the 
number of dissidents taken into police custody, arrested, and 
convicted since Xi took power has exceeded the total number 
that occurred during the 10-year reign of President Hu Jintao 
and Premier Wen Jiabao.
    That ought to be in headlines across the world that the 
race to the bottom with North Korea is unprecedented. It has 
shades as you pointed out, of Chairman Mao, Jr. There is an 
emulation here of the extraordinary excesses of Chairman Mao 
and the depravity, the cruelty that was visited.
    As you said, Mr. Gyatso, about the meeting with the Dalai 
Lama and Chairman Mao, the answer back was that religion is 
poison. What the government is doing to its own people is 
poison.
    We fail in capitals around the world, including this one, 
to recognize the insatiable appetite for depravity and cruelty 
by the guards, right up to the highest levels of this 
government in Beijing, to hurt people, to find very specific 
ways, whether it be ensuring that fasts are broken, Ramadan is 
not followed, public drinking of water and taking of food in 
order to humiliate, of course the genocide being committed 
against the Tibetans which is ongoing and pervasive, the 
relentless attempt to not just persecute, but to eradicate 
religion and spiritual belief and exercises, and I think that 
is the track that Xi Jinping is on. The evidence is 
overwhelming.
    My first question--I think the point is, and Mrs. Rebiya 
Kadeer certainly has dealt with this with her own family as 
well, the Senator asked a very, I think, important question 
about not just the incarcerated and persecuted dissident or 
religious believer or Falun Gong practitioner, but also the 
whole family goes to jail, not just in China, but everywhere 
else where members of the family and the extended family 
reside.
    We know that with Chen Guangcheng, who Bob Fu worked 
tirelessly to free and to get his wife and family out of 
Beijing; we are waiting for his nephew to be released--you 
might want to speak to that. But they always find other people 
to take actions against.
    I remember being in Hungary not so long ago and a member of 
our Embassy there made a very serious faux pas when they were 
somehow accusing the Hungarian Government of having a cozy 
relationship with China. Who has a cozy relationship with China 
then? President Obama and others in our government, 
particularly on the economics front.
    But I said, do you realize that they follow and they send 
more people to follow--this is to say, the Chinese Government--
in capitals around the world and in cities around the world 
when there is more of a diaspora there because they feel they 
own you, they own the Chinese people? If you speak out--and 
Rebiya Kadeer has dealt with that here as well, where she has 
been harassed by the Chinese Government here, not just there 
but here.
    So I think the point--and maybe some of you might want to 
build on it--about what this government so cruelly does to the 
families, they torture, they imprisoned, but then they cruelly 
mistreat the families as well, trying to do what they are 
doing--trying to do to you, with your dad saying to back off on 
human rights. So the whole family goes to jail and I think that 
is under-appreciated by policymakers everywhere.
    I would say on the Muslim persecution--and you might want 
to respond to all that. I would say on the persecution of the 
Muslims, I do not know any other country in the world where 
Muslims are persecuted the way the Uyghurs are in the People's 
Republic of China, yet China sits as a member of good standing 
on the Human Rights Council, on the Security Council of the 
United Nations, and on many other prestigious seats there.
    I plan on taking this testimony, which again, I think every 
Member of Congress needs to read and we will get it out to the 
Members, the House and Senate, hopefully the press will report 
accurately--I believe they will--as to what they have heard 
today, but also to Prince Zeid. He is the High Commissioner for 
Human Rights.
    I have worked with him on human trafficking issues in the 
past. He runs a large UN bureaucracy of human rights personnel 
and he is a Muslim. He should be speaking out every day of the 
week generally on all the persecution in China, but if he 
cannot show solidarity with the Uyghurs, that would be a very 
serious flaw on his part. So we will convey this record to him, 
especially the urgency that it is worse now than it was a year 
ago, two years ago, and China is in, like I said, a race to the 
bottom with North Korea.
    If you might want to respond to any of that, I would 
appreciate it. That is an opener. Also, Pastor Fu, we are going 
to talk about your recommendations, if you would include them 
as well.
    Mr. Fu. Yes. You are absolutely right, Chairman Smith, 
about the cruelty, the increasing cruelty, toward the family 
members. Family members oftentimes have become hostages. I have 
received multiple messages from these human rights lawyers even 
before they were arrested, and, of course, the example of Gao 
Zhisheng is another example, whose daughter was just attacked, 
and the wife was beaten up on the street. I remember when I 
spoke up in 2002 after I came to the United States, then my 70-
year-old father was taken into the police station.
    Later on, after I rescued him out of China, I learned he 
was beaten up with a big stick and basically tried to send a 
signal to silence my voice here. I am the latest example. Of 
course, you know that Major Yan Xiong, who is the army 
chaplain, should be a hero and who is one of the student 
leaders in the student democracy movement, a close friend of 
mine. We always pray together over the phone, and he is a human 
rights campaigner, too.
    He requested to even visit his mother initially. Remember, 
you also tried to intervene, and a number of other Members of 
Congress wrote letters, tried to really do a private diplomacy 
for just simple, humanitarian grounds. Major Yan Xiong's mom 
was recently holding her last breath, waiting for her son to go 
back to say farewell. The Chinese Embassy and Consulate 
rejected his visa application, and his mom died last week, and 
he still was not granted a visa.
    So this shows the cruelty. Of course, my friend Yang 
Jianli, who spent five years in prison for just speaking up and 
traveling in China, meeting with other dissidents, I think 
given the kind of deteriorating situation, one of the concrete 
recommendations I would urge you and Senator Rubio to really 
strongly push is to urge the Obama administration to reconsider 
the invitation to President Xi Jinping to visit the United 
States in September. This is not the environment for him to get 
a red-carpet welcome. He is not welcome by the American people.
    He may be welcomed by some politicians who care nothing but 
for economic interests and who really value nothing but their 
purse. And this visit by Xi Jinping in September should either 
be canceled, postponed, or at least pre-conditioned on the 
release of those prisoners of conscience, some prominent ones 
in the Free China 18 list.
    Of those prominent human rights activists, journalists, 
like Gao Yu, Pu Zhiqiang, Guo Yushan, Ilham Tohti, those are 
the peaceful citizens, the conscience of China. With them in 
the dark cells of Chinese prisons, I do not see that there is 
any good reason to justify a state visit, a welcome to Xi 
Jinping this September. So, this is one of my concrete 
recommendations.
    Ms. Kadeer. Thank you, Mr. Smith, for the question. In the 
case of the Uyghurs, the Chinese Government not only targets 
Uyghur activists in East Turkistan, but also those Uyghurs who 
have fled outside of the country, and especially targets their 
family members.
    In my case, as you know, it is very well-known that two of 
my sons were sentenced by the Chinese authorities just because 
of my human rights advocacy. One son was sentenced to seven 
years, another to nine, basically for guilt by association.
    Although both of my sons are out of prison now, having 
served their terms, I do have 24 other relatives, including 
children and grandchildren. They are not in prison, but it is 
not any different than if they were in prison. Actually, they 
are all under surveillance and strict government control, so 
they are in an open prison.
    All their financial means are frozen and confiscated by the 
government. Some of my grandchildren who graduated from 
universities, they are also black-listed and they could never 
get a job anywhere.
    Another example is a reporter, a Uyghur reporter at Radio 
Free Asia. His name is Shohret Hoshur. Because of his reporting 
of Chinese Government human rights violations, three of his 
siblings were detained by the Chinese authorities.
    These are obviously just two cases, but for all Uyghurs who 
have fled Chinese persecution and have become active overseas, 
their relatives and family members are harassed and some family 
members, the government uses them to pressure their relatives 
outside of the country, to spy on their own communities on 
behalf of the Chinese authorities.
    Due to the increasing religious repression of the Chinese 
authorities against the Uyghur people and targeting the Uyghur 
people's faith in Islam, which is demonized by the Chinese 
authorities, for many religious Uyghurs it is almost impossible 
to live a normal life in and around East Turkistan.
    As a result, many have sold whatever they could sell and 
fled to southeastern Asian countries like Thailand and 
Malaysia, hoping to reach Turkey in recent years. We have seen 
men, women, children, and even pregnant women leaving our 
homeland en masse.
    We had several hundred Uyghurs detained by the Thai 
authorities for the past two years, and recently 109 of them 
were forcibly deported by the Thai Government to China. We have 
seen the photos of the deportation. They were treated like 
criminals by the Chinese authorities and taken away.
    We now have nearly 60 Uyghurs still in Thai detention 
centers. We deeply fear for their future, should any 
deportation happen, but we already know the Chinese Government 
is harassing the relatives of the nearly 60 Uyghurs detained in 
Thailand, pressuring the family members basically to pressure 
the Uyghurs detained in Thailand to return to China.
    So the situation, of course, is very similar across the 
board, whether one is a Falun Gong member, one is a Chinese 
Christian, one is a Tibetan under Chinese rule. The Chinese 
Government's aggressive persecution of the activists, both 
inside and outside China, is extremely severe. But at the 
moment we are deeply concerned with the fate of the 109 Uyghurs 
deported to China. We also hope the rest of the Uyghurs in Thai 
detention would not be deported.
    Thank you.
    Ms. Lin. I would like to talk about some of my colleagues' 
experiences. These are very courageous people that I work with 
on independent film and television projects that expose human 
rights abuses in China.
    The NTD TV president's brother was harassed in China 
because he practiced Falun Gong and also speaks about the 
abuses that are happening. A film producer I worked with last 
summer, Leon Li, made a film about the organ harvesting that is 
happening in China and his family members have been threatened 
by the security force.
    These are people that are working in the media and helping 
to bring light to these kinds of abuses. I think if every 
Chinese can speak up and if our governments can protect these 
citizens by talking about it publicly, to let the Chinese 
Government know that when they do such things they will have a 
reputational cost, then perhaps they will respect our borders 
more. Thank you.
    Chairman Smith. We are joined by Commissioner Pittenger, a 
good friend and colleague, and also a religious freedom human 
rights activist and a very, very strong believer and 
inspiration to me.
    Mr. Pittenger?

STATEMENT OF HON. ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM 
                         NORTH CAROLINA

    Representative Pittenger. Thank you, Chairman Smith, for 
your wonderful leadership applied to religious freedom for 
people throughout the world. We met some 30 years ago and I 
have always been grateful for your big heart and compassion 
toward these important issues.
    I have been engaged in this since my involvement with 
Campus Crusade for Christ back in the 1970s. For 10 years, I 
was an assistant to Dr. Bill Bright, president of the 
organization. We quietly worked through various groups in 
various parts of the world and the plight of those who are 
suppressed for their faith, as well as working and traveling in 
the former Soviet Union back in the 1980s with Congressman 
Frank Wolf and David Amess, a Member of Parliament. We went 
there on behalf of those seeking freedoms of conscience and 
religious liberties.
    So I am deeply committed to these issues and I want to 
express my heartfelt solidarity with each of you. I know that 
many gathered here last week for the Falun Gong demonstration 
and for the rights to practice their beliefs.
    We stand with all people of all faiths for that right and 
that privilege. It is a God-honored commitment that I believe 
that all people should have. So, thank you for having this 
hearing, Mr. Chairman. I look forward to continued discussion 
and dialogue with you.
    Chairman Smith. Thank you very much.
    Before we conclude, if there are any other points that any 
of you would like to make, I do want to say that China is a 
signatory to the Genocide Convention. They have, in my 
opinion--and they ought to be held to account for it--committed 
multiple acts of genocide and do so to this very day.
    There is the gendercide issue, where females are being 
slaughtered through the One-Child-Per-Couple policy. They pass 
laws that are absolutely ineffective and unenforced because it 
brings the numbers down. We know that as part of population 
control that came right out of Washington, Planned Parenthood, 
and other organizations in the 1960s, the idea of destroying 
the baby girl, the girl child in utero, is an effective means 
of reducing your population because not only do you kill the 
baby in the womb who happens to be a girl, you also kill the 
chances of that girl being a mother when she is 20, 25, and 30.
    On religious grounds, the Tibetans, there is no clearer 
example ever of genocide. I have read the Dalai Lama's book 
when he talked about the Han majority replacement, 
systematically displacing indigenous Tibetans. The multiple, 
systematic attacks against Tibetan Buddhists is a clear example 
of genocide.
    The same goes, I believe, with the Uyghurs, less visible to 
many people. It ought to be, but it is not. It is another 
genocide, a systematic destruction of a people in whole or in 
part. It fits the definition. Christians. They have tried to 
manage it for years after trying to completely eliminate, as 
Mao Zedong told the Dalai Lama, the poison of religion, then 
they looked to manage it.
    I think now they are reverting back to a destructive 
modality. The Falun Gong, it is inexplicable what the fear is 
there. It ought to be--I mean, people of faith form wonderful 
citizens who are law-abiding and Falun Gong have shown no 
tendency other than to be very, very good people with good 
principles, and yet the Chinese Government has been on a tear 
to slaughter, kill, and as you pointed out, Ms. Lin, the organ 
harvesting issue is something we are really looking 
aggressively into because that is another major fundamental 
human rights abuse, to kill someone to procure their organs.
    I held hearings 20 years ago, and we had a man who actually 
was a police officer who left, got asylum here. He got asylum 
in part because he came and appeared before our hearing. But he 
brought documentary evidence showing that they were 
exterminating, killing, executing prisoners, but not totally 
until they got the preferred body organ for transplant. He gave 
us a tremendous amount of documentation on that.
    To think that kind of horror, which is Nazi-like, continues 
today against Falun Gong and perhaps others is an atrocity that 
cannot go unaddressed. Bob Fu, Pastor Fu, said that Xi 
Jinping's invitation, and who knows if it is going to be a full 
White House dinner with the red carpet. You enable evil, in my 
opinion, when you bring people in and give them a public 
relations opportunity back home that is second to none.
    I believe in meeting with people that you profoundly 
disagree with. I met with Bashir, who did the genocide against 
the people of Darfur in South Sudan. I met with him for well 
over an hour, argued with him. We do not do the arguing part. 
We meet, we toast and we make nice. Diplomacy ought to be 
heavily imbued with truth and reality.
    Unfortunately--and the one that got me even more than when 
President Obama had Hu here was when Chi Haotian came in, the 
Defense Minister of China who was the operational commander for 
the Tiananmen Square massacre. He should have been sent to the 
Hague for crimes against humanity. Instead, he was given a 19-
gun salute by President Bill Clinton.
    I will never forget it. I put together a hearing that day. 
Some of you were here and we bore witness to the fact, two days 
after Chi Haotian said nobody died at Tiananmen Square. Back 
home, as I ready People's Daily, the English version, it was 
like Chi Haotian takes Washington by storm. We need our 
government, we need the President--he can do it as 
diplomatically as he wants, but to have some red lines about 
these human rights abuses that, as you have pointed out, all of 
you have pointed out, has gone from bad to worse.
    Again, we are going to give this hearing over to the White 
House. Hopefully they will look at it and hopefully they will 
not throw it into the circular file. But the President himself, 
and Biden himself--you know, if you are going to get these 
positions, if you aspire to be President, you had better be 
president for all the people, Americans, as well as for people 
who are struggling under the tyranny of a dictatorship as they 
are in Beijing and throughout China.
    So if you want to make any final comments, or Mr. 
Pittenger, if you would want to conclude on anything, thank you 
for your speaking truth to power with risks to yourselves and 
your loved ones when you do it. I just want to say how grateful 
we are. We will give this to Prince Zeid.
    I will get a copy to Ban Ki-moon and hopefully I will 
physically put it in his hands and ask him to read it, because 
China gets a pass on human rights. They have been for far too 
long and now that they are in a race to the bottom, I will say 
it for the third time, with North Korea for abuses against 
their own citizens, it is about time that the United Nations 
found its voice.
    Pastor Fu?
    Mr. Fu. Yes. Thank you, Chairman, once again. I just want 
to have the rest of the four specific recommendations to the 
State Department specifically, and thank you, Congressman 
Pittenger, for your leadership, too.
    As you just mentioned, the family members, I mean, we 
actually even on our list today there was a petitioner from 
Heilongjiang province, Ms. Ma Yuqin. She was abused and 
tortured even for just simply making peaceful petitions for her 
property. Her whole factory was arbitrarily confiscated with 
all her wealth gone.
    I think the U.S. State Department should strongly consider 
posting an officer at the U.S. Embassy in China with the sole 
responsibility of monitoring and reporting on religious freedom 
and related human rights abuses within China, including in the 
areas of Tibet and Xinjiang. I also recommend that the State 
Department's Office of International Religious Freedom and the 
Commission on International Religious Freedom to, each year, at 
least request to visit China.
    When was the last time each of the offices and agencies 
have visited China? I think it is already years that there has 
been no visit. My request for a visit of the former Ambassador 
was even denied a visa, but we did not hold any protests on 
even denying a president-appointed ambassador-at-large. That is 
a shame.
    The third recommendation I would recommend is that the 
State Department should make an official public statement 
condemning this forced demolition of churches and crosses in 
Zhejiang and other areas of China. So far, neither Secretary 
Kerry nor the spokesperson has issued a public statement 
condemning this large, brutal, shameful campaign.
    The fourth and last one, is the State Department should 
raise publicly and at all levels of exchange with the Chinese 
Government the cases of prisoners of conscience, including the 
China 18 and others. I know you had led the campaign to urge 
President Obama to meet with the daughters of the prisoners of 
conscience multiple times.
    I think if the excuse not to meet with these family members 
in China--it could pose a danger or potential threat--but how 
about here in the United States? There is no threat to meet 
with the family members. So, these are the recommendations.
    I hope the State Department and our Embassy can really 
actively engage with those family members affected by the 
forced removal of crosses and the demolition of churches, the 
pastors can go and visit them and to meet with them and to 
really know about the situation and take concrete steps. Thank 
you.
    Ms. Lin. Just one final remark, Mr. Chairman. There are 50 
Falun Gong practitioners who have been recently denied refugee 
status in South Korea and are ready to be deported back to 
China to face those inhumane violations.
    I admire your commitment to human rights, but not every 
government is like that. I think we now face a choice, every 
one of us who are outside and inside China. We can choose to be 
silent and conform to these kinds of violations or we can use 
our liberty to advocate for those whose liberty has been 
deprived. Thank you very much.
    Chairman Smith. On those 50, we will look into it and see 
if it would be appropriate--it probably will, but we will have 
to do a quick vetting of it. I mean, the whole issue of 
refoulement is that you do not send somebody back where there 
is a well-founded fear of persecution. You can count on each of 
those people, I think, going back to persecution, not even the 
fear of it.
    We have had ongoing arguments with the UNHCR, and then a 
number of host governments who continually do this, send Falun 
Gong and others back to near certainty, either incarceration, 
certainly harassment, and we contact not only the government of 
South Korea, but also the High Commissioner for Refugees. So we 
will follow up on that right after this hearing.
    Ms. Kadeer?
    Mr. Gyatso. If I may, just one final.
    Chairman Smith. Yes.
    Mr. Gyatso. In terms of finding some sort of a resolution 
and a solution to the situation inside Tibet, one thing that is 
clear for Tibetans in exile, and I think from messages coming 
out of inside Tibet also, there is support for the Dalai Lama's 
proposal made to the Chinese Government many years ago of 
finding an amicable solution for Tibetans to exist within the 
Chinese state but with autonomy over their culture, education, 
et cetera.
    I think a possible solution within this Dalai Lama's 
lifetime would be for the United States and other ally 
countries that may see the wisdom of this solution, this 
proposal, to support it more openly and to help introduce 
education for the Chinese people to understand the content of 
that proposal so that they can see that a viable solution is 
not being properly addressed by the Chinese Government. Because 
after the passing of this Dalai Lama, I believe Tibet will 
enter a much bleaker situation.
    Thank you.
    Ms. Kadeer. In the case of Uyghurs, our biggest concern is 
extrajudicial killing of Uyghurs by the Chinese security 
forces, especially in predominantly Uyghur areas of Yatican, 
Kashgar, and Hotan.
    It is also extended sometimes to Aksu and Urumqi areas. In 
most cases, we see Chinese security forces shoot and kill 
Uyghurs and just blame them. We do see, sometimes, family 
members, women and children, who are involved especially in 
police raids into the homes of the Uyghurs.
    Just two days ago, the Chinese security forces in the city 
of Aksu shot and killed a Chinese woman with her child. She was 
taking her daughter to a piano lesson, and for some reason she 
may not have stopped at the particular checkpoint. We believe 
she was mistaken as a Uyghur and shot and killed. This is the 
first time a Han Chinese was extrajudicially killed in our 
home.
    Her husband was obviously furious with the extrajudicial 
killing of his wife in the presence of the daughter, so he 
basically asked, ``Why didn't you stop her? Or if you were 
suspicious, why didn't you shoot the tires? Why did you shoot 
inside of the car and kill my wife? Is it your job to just 
shoot and kill, not to stop people? '' They said we thought 
maybe some Uyghurs or something were inside.
    So my hope is both the administration and U.S. Congress, 
especially the State Department, could raise the issue urgently 
of the extrajudicial nature of Chinese security forces killing 
of not just Uyghurs, because they test with Uyghurs and then 
they extend to Tibet, to Falun Gong, to Chinese Christians. 
Usually this is the way to go, so I hope the U.S. Congress and 
the administration will pay particular attention to the 
extrajudicial killings. Thank you.
    Chairman Smith. Any concluding comments?
    [No response].
    Chairman Smith. Thank you so much. You are true heroes.
    [Whereupon, at 1:04 p.m. the hearing was concluded.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Anastasia Lin

                             july 23, 2015
    Thank you Mr. Chairman, and thank you to the Congressional-
Executive Commission on China for convening this event.
    My name is Anastasia Lin. I'm an actress and a Canadian citizen. I 
will be representing Canada at the 2015 Miss World competition in 
Sanya, China, at least that is my hope. Recent events leave me 
uncertain, I'm a little worried about what will happen next if I 
continue to speak out.
    I campaigned for the title of Miss World Canada on a human rights 
platform. I wanted to speak for those in China that are beaten, burned 
and electrocuted for holding to their beliefs; people in prison who eat 
rotten food with blistered fingers because they dare have convictions. 
These are some of China's most noble people, people of moral 
fortitude--a characteristic once treasured in my homeland, a 
characteristic now so desperately needed.
    When I was crowned Miss World Canada, my father was so proud of me.
    He received hundreds of congratulatory messages. But within a 
couple days, my father's tone changed. He told me nervously that I must 
stop my advocacy for human rights in China, or else he would have no 
choice but to sever contact with me. I understand my father was visited 
by Chinese security agents, who forced him to apply pressure on me in 
this way.
    Over the past several years, I have taken on roles in several 
independent film and television programs that depict human rights 
abuses in China. My job requires me to be intimately familiar with the 
stories of those who have suffered unspeakable horrors, including a 
number of Falun Gong practitioners who were imprisoned and tortured for 
their beliefs.
    Prison guards put bamboo sticks under their fingernails. Women are 
tortured with electric batons on their private parts and raped. 
Hundreds of thousands have been jailed for a belief. These are not 
criminals. They are simply people who wanted to meditate and improve 
themselves by following the values of truthfulness, compassion and 
tolerance.
    I have studied these stories and performed them. In Bleeding Edge, 
a film to be released this Winter, I play a woman imprisoned for 
practicing Falun Gong. Like so many millions, she is tortured. But it 
is the scene where her family members are brought before her, made to 
kneel and beg her to give up her belief, that is the hardest to bear.
    Because it is not just her body and her mind that are battered; the 
Communist Party makes her family suffer. This is the regime's policy of 
guilt by association. It is why my father was threatened by security 
forces. Nevermind that I am a Canadian citizen, upholding Canadian 
values, on the other side of the world.
    I can't understand what it is like to be tortured or face the 
inhuman violations of prison guards. But I now understand what it means 
to feel deep fear that my convictions could be paid for by the people I 
love the most in the world.
    I wish I could tell you that I didn't waver, that I didn't question 
if I wasn't being too selfish and putting my family at risk, but I did. 
Then I remembered, this isn't about me.
    Through my encounters with persecution victims and their family 
members, I have found that these practitioners of Falun Gong--who have 
been marginalized, defamed and vilified in China for the past sixteen 
years--are noble people. Despite the constant threat of arbitrary 
detention, torture, psychiatric abuse, or death, they have been 
steadfast in their commitment to their principles, and have always 
sought peaceful means to resist and generate public awareness of the 
persecution.
    In China today, our traditional values have buried under the moral 
scars of endless political campaigns. Material wealth and the pursuit 
of self-interest are foremost in many people's minds. The courage of 
Falun Gong practitioners, and of other dissidents and human rights 
lawyers, stand in stark contrast to these trends and this is what gives 
me hope for China's future. There are still people of integrity there.
    And yet, it is these people that suffer the most. Good people like 
my father, a law abiding and contributing citizen, an honest 
businessman now too afraid to talk to his daughter, who once supported 
her in everything she did, who now must leave her to face the world 
alone.
    Mr. Chairman, I hope you understand this is a common experience for 
so many American and Canadian citizens. Those Chinese who dare to speak 
their minds do so knowing that those still within the regime's reach in 
China could pay the price for it.
    We have a saying these days, being ``invited to tea.'' It is when 
the Chinese security agents ask you to come with them to remind you who 
has the baton and that they don't mind using it.
    For myself, I know silence is more dangerous. If you don't speak 
up, those security personnel will know that their tactic work, and they 
will never stop. That's why I told the world what happened to my dad. I 
hope he understands. I hope he knows how much I love him.
    I also hope that people will pay attention to stories so much more 
tragic than my own. Like that of Paul Li who, like me, is also a 
Canadian citizen in Toronto.
    Three months ago, Paul's father Li Xiaobo was sentenced to his 
second 8-year prison term. Mr. Li is 60-years-old and in Chengdu, 
China. He was once a highly respected county magistrate, and because he 
followed Falun Gong's teachings of truth, compassion and tolerance, he 
and sought to be fair in all his dealings. He didn't use his position 
to gain wealth and personal advantage. That is very rare among chinese 
officials.
    After the persecution of Falun Gong began in 1999, Mr. Li wrote 
essays criticizing the Communist Party's actions. He spent 8 years in 
prison for these words. In order to try to force him to renounce his 
beliefs and embrace the Party's doctrine of atheism, authorities 
tortured him brutally, making him blind in one eye.
    After being released from prison, he continued to publicize cases 
of torture and abuse, and again wrote and distributed literature to 
inform his compatriots about the persecution of Falun Gong.
    I could never claim to have that kind of courage and unbending 
integrity. This is the kind of person that China needs, the kind of 
person the world needs.
    Last year, while Mr. Li and his son were out distributing 
information, he was again arrested. Paul, who is a Canadian citizen, 
was eventually deported back to Canada. But in April of this year, Mr. 
Li was again sentenced to eight years in prison.
    His deeds are heroic, and yet unlike myself, when Paul Li tried to 
get the media to pay attention to his case, he met with silence.
    Maybe nobody paid attention because Mr. Li's story is just too 
common.
    The persecution on Falun Gong is among the worst most widespread 
and the brutal human rights violations in history. After the end of 
1998, the Chinese Communist government estimated that the number of 
people who practiced Falun Gong was about 70 million.
    Since the persecution began in 1999, millions have been arbitrarily 
detained, arrested, imprisoned, tortured, sexually assaulted or 
murdered.
    Thousands of Falun Gong practitioners continue to be sentenced to 
prison every year, often after show trials where they have no chance of 
justice, and where decisions are made by Communist Party authorities 
rather than independent judges.
    Lawyers who try to represent Falun Gong practitioners--including 
many of the lawyers targeted in the most recent crackdown--have faced 
harassment, disbarment, beatings, and imprisonment.
    Historically, most Falun Gong practitioners have been detained in 
reeducation-through-labor camps (RTL). In a 2013 study, Amnesty 
International reported that Falun Gong detainees comprise between one 
third to 100 percent of the prisoners in the labor camps it studied.
    Freedom House recently reported that ``hundreds of thousands'' of 
practitioners had been sent to these camps, where they face an elevated 
risk of torture and death in custody. Common torture methods include 
beatings; shocks with electric batons; violent forced-feedings that 
often puncture the esophagus or lungs; suspension in stress position; 
and sexual humiliation and abuse.
    Facing growing international and domestic pressure, the Chinese 
government closed the reeducation-through-labor system in 2013. But 
this was mainly a cosmetic change, as many camps were simply renamed as 
prisons, rehabilitation centers, or reeducation centers. For Falun Gong 
practitioners, it did nothing to improve their circumstances. In fact, 
between 2013 and 2014, the reported number of abductions and arrests of 
Falun Gong practitioners rose by nearly a third (29.8%), from 4,942 to 
6,415 per year.
    While Falun Gong practitioners have the names and stories of some 
3800 practitioners who have been killed in the persecution, multiple 
independent investigators estimate that tens of thousands of Falun Gong 
practitioners have been killed so their vital organs could be extracted 
and sold for organ transplantation--a lucrative business in China.
    I'd like to remind you all that there are so many people in China 
facing unspeakable suffering, not because they did anything wrong, but 
because they are people of faith and morality. They are people any 
country would be fortunate to have. I hope China realizes that before 
too many more of them have been jailed or killed for possessing the 
kind of conviction and virtue China so desperately needs.
    I want to finish by telling you about my father. He is a successful 
and decent businessman. He's also uniquely generous. For many years, he 
has been contributing to villages to build roads and donating money to 
people that can't get work. He brings his children out to the street to 
give out red envelopes of money every New Year to people less fortunate 
than himself. He has really inspired me throughout my life to think of 
others.
    I don't get to talk to him anymore. Here I am doing something I 
think he should be so proud of, something I think is so important for 
the country I was born in, and he and I can't even speak. I also have 
to question if my testimony here today may make him angry with me, or 
worried for his business and family in China.
    These threats are how American and Canadian citizens with family in 
China feel the weight of the regime's repression even here, on the 
other side of the world. Human rights and religious freedom in China 
don't just affect the people they live there, they affect every person 
of Chinese ethnicity around the world that still have loved ones there.
    I hope that you can help Chinese people gain a voice, to support 
them in their wish to believe what they want to believe and talk to 
whoever they want to talk to about any topic they wish. I hope this can 
happen soon. I miss my dad.
    Thank you.
                                 ______
                                 

                      Prepared Statement of Bob Fu

                             july 23, 2015
    Honorable Chairman Congressman Smith, Co-Chairman Senator Rubio, 
Members of the Congressional-Executive Commission on China, and 
distinguished guests:
    This is the third year of President Xi Jinping's Administration in 
China, whose policies and actions have raised alarm, and in some cases 
astonished the international community. Domestically, Xi has purged his 
political rivals through a ``selective anti-corruption campaign'' and 
monopolized power within the leadership of the Communist party, the 
government and the military. In foreign policy, Xi has adopted a 
dangerous and aggressive agenda, challenging existing international law 
and creating his own when deemed necessary, including the national 
security law, which is being viewed by may as a pretext for human 
rights abuses. This antagonistic and arrogant approach to governance 
over the past two and half years has earned Xi the nickname ``Chairman 
Mao Junior'' and ``Xi-tler.''
    In the past two years, human rights and rule of law in China have 
rapidly deteriorated. The number of dissidents taken into police 
custody, arrested and convicted since Xi took power has exceeded the 
total number that occurred during the 10-year reign of President Hu 
Jintao and Premier Wen Jiabao. Chinese citizens who peacefully 
criticize the government or defend the rights of citizens; lawyers who 
dare to represent ``sensitive cases'' without cooperating with the 
government; and activists who assemble in a peaceful manner, attempt to 
request the government's permission to establish a non-governmental 
organization (NGO), or peacefully protest against government policies 
or judicial injustices are subsequently ``invited to drink tea,'' 
summoned for interrogation, detained or arrested, and eventually tried 
in a corrupt judicial system. To be sure, the Chinese government has 
intensified its harassment of NGOs, civil society organizations, law 
firms representing human rights cases, charitable organizations, and 
political organizations such as the ``New Citizen Movement.''
    During the Xi Administration, and particularly in the past 18 
months, religious freedom abuses have reached a level not seen since 
the Cultural Revolution. Not only have house churches continued to 
experience intensifying persecution, but now ``Three-Self'' churches, 
that is, government-sanctioned churches are being subjected to 
government-sponsored persecution campaigns. The Chinese government's 
persecution of Tibetan Buddhists, Uyghur Muslims, and Falun Gong 
practitioners has also worsened. The Chinese government perceives 
religious practitioners as being guided by ``foreign influence'' and 
has subsequently pursued absolute control over religious communities.
    Finally, China's newly passed national security law will expand the 
management, oversight, and suppression of religious activity under the 
guise of national security. Specifically, Article 27 states that ``The 
State lawfully protects citizens' freedom of religious belief and 
normal religious activities, upholds the principle of religions 
managing themselves, preventing, stopping and lawfully punishing the 
exploitation of religion's name to conduct illegal and criminal 
activities that endanger national security, and opposes foreign 
influences interference with domestic religious affairs, maintaining 
normal order of religious activities. The State shuts down cult 
organizations in accordance with law, preventing, stopping, lawfully 
punishing and correcting illegal and criminal cult activities.'' The 
last clause regarding so called ``cults'' is especially concerning 
noting the Chinese government's use of this term to persecute both 
Falun Gong practitioners and most recently house churches. To be sure, 
the new national security law is expected to embolden the Chinese 
government to intensify its harassment of religious practitioners and 
organizations in order to control all aspects of religious life.
    I will testify on religious freedom, human rights and rule of law 
in China and focus specifically on the forced demolitions of churches 
and crosses in Zhejiang province, the ongoing persecution of the house 
church, and the treatment of human rights defenders and the rule of law 
in China.
    I will then offer related observations and recommendations for U.S. 
foreign policy on China.
                         i. forced demolitions
    In the past year, the government of Zhejiang province has 
demolished churches and crosses under the pretext of implementing 
standards for buildings. Based on China Aid's research during 2014 and 
the first six months of 2015, the Chinese government's suppression of 
house churches and ``Three-Self,'' that is, government sanctioned 
churches have escalated significantly compared to previous years. In 
2014, the comprehensive intensity of the government's persecution of 
Christian churches and Christians overall in China increased 
dramatically. In comparing the total number of religious persecution 
cases, the number of religious practitioners persecuted, the number of 
citizens detained and sentenced, the number of severe rights abuse 
cases, and the number of individuals in severe abuse cases with China 
Aid statistics from 2013, the totals of these six categories increased 
by 152.74 percent. In comparison with China Aid statistics from 
previous annual reports, there is a trend of increased persecution over 
the past eight years, which averages an annual increase of 166.47 
percent.
    In 2014, the Communist Party Committee and the government of 
Zhejiang province destroyed churches and crosses under the guise of a 
campaign entitled ``three rectifications and one demolition,'' which 
attempted to regulate so-called ``illegally constructed buildings.'' By 
the end of 2014, more than 30 churches were forcibly demolished 
throughout the province, over 300 individuals were interrogated by 
police, more than 150 religious practitioners were physically injured, 
more than 60 individuals were administratively or criminally detained, 
and more than 10 pastors and church leaders were arrested. According to 
information collected by China Aid, by the end of June of this year, 
more than 1,500 churches had their crosses forcibly demolished or 
removed in Zhejiang province, at least 50 of which were house churches 
in rural areas, with more than 1,300 Christians having been 
interrogated, arrested, or held in custody for protesting or attempting 
to prevent the destruction of their churches or crosses.
    Just in the past month, both Protestant and Catholic government 
sanctioned churches in the cities of Hangzhou and Jinhua had their 
crosses forcibly demolished or removed. A few members of these churches 
peacefully protested and in some cases hired lawyers to defend their 
rights. In addition, both the Chinese Catholic Patriotic Association 
and China Christian Council representing Zhejiang province sent letters 
to the provincial and central government authorities demanding they 
cease from forcibly demolishing their church's crosses. The government 
sponsored campaign to destroy the crosses of predominately government 
sanctioned churches reflects a new development in religious persecution 
in China.
                ii. persecution against the house church
    The Chinese government's persecution campaign against the house 
church movement continues to escalate as a continuation of the 2011 
government mandate to ``eradicate house churches within 10 years.'' 
During the past 18 months, the Chinese government has orchestrated a 
systematic campaign to persecute house churches in China. The larger 
urban house churches such as the Shouwang Church in Beijing and Wanbang 
Church in Shanghai continue to remain prohibited by the Chinese 
government, while house churches such as Chengdu's Xiuyuzhifu Church, 
Guangzhou's Liangren Church, and Guiyang's Huoshi Church are subjected 
to strict control and harassment by public security and religious 
affairs bureaus. House churches in rural areas also continue to 
experience increased levels of persecution.
    Unlike previous years, the Chinse government began to persecute 
house churches under the guise of ``eradicating cults'' in 2014. The 
Chinese government consistently cites ``attacking cults'' as a pretext 
to launch large-scale persecution campaigns against house churches. 
Details of religious freedom cases reveals that the CPC regularly cited 
Clause 300 of the Criminal Law, defined as ``organizing cults and sects 
and using superstition to undermine law enforcement,'' in an attempt to 
harass and persecute house church pastors, elders, and church members.
    The Chinese government's persecution of house churches under the 
pretext of ``eradicating cults'' and through other means is detailed in 
China Aid's 2014 Annual Report on Religious and Human Rights 
Persecution in China. Unfortunately, the persecution of the house 
church continues to worsen in 2015, here is a sampling of the reports 
we have received this year:

        <bullet> January 20, 2015: Over 20 church members from 
        Sichuan's Langzhong Church were taken into police custody, and 
        nine were administratively detained for 10-15 days.
        <bullet> March 20, 2015: 10 Christians in Jiangsu province were 
        detained for attending a worship service.
        <bullet> March 23, 2015: Yongxing Christian Church in Anhui 
        province was forcibly demolished.
        <bullet> April 14, 2015: A church in Anhui province was 
        forcibly demolished.
        <bullet> April 16, 2015: Approximately 10 Christians in two 
        regions of Xinjiang Uygur Autonomous Region were taken into 
        police custody.
        <bullet> April 24, 2015: Two religious practitioners in 
        Xinjiang were administratively detained for gathering in a 
        house to worship.
        <bullet> April 24, 2015: Three Christians were sentenced to two 
        years in prison and a contractor was sentenced to one year and 
        nine months in prison for ``illegal business operations'' for 
        printing character improvement textbooks that included 
        references to Christian values.
        <bullet> April 26, 2015: Five members of the Discipleship 
        Church in Shandong province were sentenced to three to four 
        years in prison.
        <bullet> April 30, 2015: Bethany Church Jilin province was 
        forcibly closed.
        <bullet> May 10, 2015: Over 30 Christians in Xinjiang were 
        detained by police and their church was forcibly closed.
        <bullet> May 20, 2015: Three house churches in Guangdong 
        province were forcibly closed.
        <bullet> May 26, 2015: Twelve members of Qianxi Church in 
        Guizhou province were administratively detained, and seven were 
        later placed under criminal detention.
        <bullet> May 28, 2015: In Liaoning province, the wife of Pastor 
        Wang Zhongliang was bound and gagged by public security 
        officers for several hours prior to the interrogation of her 
        husband.
        <bullet> June 1, 2015: Pu'er Church in Yunnan province was 
        raided by the government.
        <bullet> June 13, 2015: Beijing's Yahebo Church was raided.
        <bullet> June 16, 2015: Members of Sichuan's Langzhong Church 
        were detained for 10 days, and members of Shuiguanzhen Church 
        were detained for 15 days.
        <bullet> June 29, 2015: 8 members of the Daguan Church in 
        Guizhou province were criminally detained.

    In reviewing religious freedom abuses perpetrated against the house 
church during both 2014 and 2015, the following characteristics 
emerged: the abuse of administrative penalties and regulations 
regarding the length of administrative or criminal detention of church 
members and leaders; persecuting churches and church members under the 
guise of ``eradicating cults;'' confiscating house church possessions, 
religious materials, and books; banning and harassing Sunday schools 
and their use of religious publications; forcibly collecting and 
documenting information about house churches and church members; 
forcing house church members to join the government sanctioned Three-
Self church; detaining and sending house church leaders to labor camps 
on the pretext of ``suspicion of organizing and using a cult to 
undermine law enforcement;'' and restricting religious teaching to 
minors and college students.
            iii. human rights defenders and the rule of law
    Ironically, Xi Jinping shouted the slogan ``govern the country 
according to law'' when he took office, but the rule of law in China 
has perhaps regressed to a time of reminiscent of the Cultural 
Revolution. In the less than three years of Xi's presidency, human 
rights conditions and the rule of law in China has deteriorated 
significantly. The Chinese government has increased its interrogation, 
detention, and arrest of dissidents, human rights advocates, NGO 
leaders, feminist activists, human rights lawyers, and other civil 
society actors. The Chinese government also continues to abuse Article 
73 of China's criminal procedural law, known as ``residential 
surveillance,'' which allows for the arbitrary detention of Chinese 
citizens, which has been used against human rights lawyers, dissidents, 
religious practitioners, and journalists.
    The Xi Administration continues to harass, intimidate, and arrest 
NGO and think tank leaders, such as Dr. Xu Zhiyong of the New Citizen 
Movement, whose campaigns to promote equal access to education and the 
public disclosure of government official's financial records have been 
banned by the Chinese government. The leaders of the Beijing-based non-
governmental think tank ``Transition Institution,'' namely Guo Yushan 
and He Zhengjun have been arrested on the charge of ``illegal business 
operations'' and are awaiting trial.
    The Chinese government continues to arrest influential public 
intellectuals and journalists who dare to criticize the government and 
disseminate information on constitutionalism, including the veteran 
journalist Gao Yu, 71, who was unjustly sentenced to seven years in 
prison for the crime of ``illegally providing state secrets to 
(institutions) outside (China's) borders.''
    To be sure, human rights lawyers in China are among the bravest 
Chinese citizens seeking justice and promoting the rule of law in 
China. Unfortunately, the reward for courageously defending Falun Gong 
practitioners, political dissidents, and human rights advocates is to 
be labeled a ``trouble maker'' by the government and subsequently 
subjected to harassment from local government public security agencies 
and government officials in the judicial system.
    The Chinese government has intensified it persecution of human 
rights lawyers, including the arrest and detention of prominent lawyer 
Pu Zhiqiang, who has been in detention for over one year and still 
awaits trial. Pu represented numerous Chinese citizens whose basic 
rights had been violated by the government, and expressed his views on 
public issues via the Internet, including criticizing the government's 
policies on the treatment of ethnic minorities.
    Sadly, the internationally recognized human rights lawyer Gao 
Zhisheng is still being denied freedom of movement and access to 
medical treatment since being released from prison in August of 2014 
after serving a 5-year prison sentence.
    In March of 2014, human rights lawyers Tang Jitian, Jiang Tianyong, 
Wang Cheng and Zhang Junjie, and nine family members of their clients, 
visited the ``Jiansanjiang Rule of Law Education Center'' in China's 
northeastern Heilongjiang province and demanded the release of 
illegally detained citizens. These lawyers and family members were all 
arrested by the local public security agent and subsequently placed 
under administrative detention for ``utilizing cult activities to harm 
society.'' The four detained human rights lawyers were beaten and 
tortured resulting in collectively having 24 of their ribs broken. The 
``Jiansanjiang'' incident became well known throughout China among both 
human rights lawyers and citizens alike causing many to travel to 
Jiansanjiang to show their support. In the end, the local public 
security bureau kidnapped and beat more than 100 individuals that were 
peacefully protesting.
    Unfortunately, there are a hundreds of these incidents in which 
human rights lawyers are harassed or worse, beaten. Here is a sampling 
of the reports we have received this year:

        <bullet> In February, during a trial in the city of Liuzhou 
        attorneys Wen Yu and Sui Muqing were expelled from the court by 
        the presiding judge and physically injured by judicial police.
        <bullet> In April, Beijing-based attorneys Wang Fu, Liu Jinping 
        and Zhang Lei were surrounded and assaulted at the gate of 
        Hengyang Intermediate Court by judicial police.
        <bullet> In June, attorney Zhang Kai, Li Guisheng and six other 
        human rights lawyers traveled to Guizhou province to represent 
        a human rights case and were beaten by local police.
        <bullet> On July 10th, the Chinese government began 
        interrogating and detaining human rights lawyers and advocates, 
        and legal professionals, which continues today. As of July 
        21st, 242 human rights lawyers and advocates, and legal 
        professionals have either been interrogated, detained, or have 
        gone missing into police custody, of which 11 human rights 
        lawyers and 3 human rights advocates have been criminally 
        detained, and 6 remain missing.

    There are many who fear that the July 10th crackdown on human 
rights defenders may be under the pretext of China's new national 
security law, including the State department, which made the the 
following statement last week: ``Over the last few days we have noted 
with growing alarm reports that Chinese public security forces have 
systematically detained individuals who share the common attribute of 
peacefully defending the rights of others, including those who lawfully 
challenge official policies. We are deeply concerned that the broad 
scope of the new National Security Law is being used as a legal facade 
to commit human rights abuses. We strongly urge China to respect the 
rights of all of its citizens and to release all those who have 
recently been detained for seeking to protect the rights of Chinese 
citizens.''
    In April of this year, the 14th Plenary of the 12th National 
People's Congress Standing Committee reviewed the Foreign NGO 
Management Law, which many fear will further suppress civil society. 
The eventual enactment of this law and the national security law 
recently passed on July 1st indicate that the Chinese government aims 
to comprehensively exercise unconstrained control over its citizens, 
including limiting access to information, and controlling every aspect 
of civil and political life, which is a dangerous and alarming trend 
that should be viewed as both a United States foreign policy and 
national security priority.

In gauging U.S. foreign policy towards China, I'd like to make the 
following observations:

    The U.S. government must carefully evaluate the effectiveness of 
its foreign policy with China over the past few years. The United 
States has numerous exchanges and partnerships with the Chinese 
government on economic, military, and political issues, but has yet to 
produce any positive outcome in advancing human rights, religious 
freedom or rule of law in China. In fact, the over the last decade, the 
United States has done little more that expressed its concern over 
China's deteriorating human rights record. Nobel Peace Prize laureate 
Liu Xiaobo still remains in prison, and prominent political prisoners 
of conscience Wang Bingzhang and Peng Ming who peacefully advocated for 
China's democratization are still serving life sentences.
    In the past decade, the Chinese government has both openly and 
secretly executed more than one thousand prisoners of conscience. The 
Chinese government's persecution of Falun Gong practitioners, Tibetan 
Buddhists, Uyghur Muslims, and Christians both within house churches 
and government sanctioned TSPM churches has reached an unprecedented 
level. To be sure, religious freedom and related human rights remain an 
empty promise for Chinese citizens, and President Xi's suppression of 
freedom of speech on university campuses, and arrest and detention of 
dissidents, human rights lawyers, and civil society actors appears to 
be becoming the norm in China. Yet, every year, Congressional leaders 
and human rights organizations make strong appeals to the Obama 
administration, hoping that the U.S. government will take stronger and 
more effective measures to pressure the Chinese government to adhere to 
basic human rights as defined by international law. To be sure, the 
current approach of our U.S. foreign policy with the Chinese government 
has not worked, and there are consequences to this failed foreign 
policy, namely the lives of those Chinese citizens working at their 
peril to advocate for the basic freedoms we too often take for granted 
here in the United States.
    Thus the U.S. government must have a new policy with China that 
clearly defines human rights as a priority in ongoing and future 
dialogues and identifies opportunities to pressure the Chinese 
government to respect their citizen's access to basic human dignity, 
freedom, and civil and political rights. U.S. foreign policy must link 
the improvement of human rights and rule of law in China with ongoing 
and future cooperation in the economic, political, and military 
sectors.

Therefore, I would offer the following recommendations for U.S. foreign 
policy on China:

        <bullet> Noting that the annual U.S.-China Human Rights 
        Dialogue has yet to make any significant gains, many within the 
        human rights community, including myself, believe the dialogue 
        should be cancelled indefinitely. However, if the dialogue 
        should continue, there should be strict preconditions, such as 
        clearly defined and measureable outcomes and the inclusion of 
        human rights advocates and Chinese civil society 
        representatives.
        <bullet> Human rights should play a more central role during 
        annual U.S.-China Strategic and Economic Dialogues (S&ED) and 
        include a review mechanism to ensure progress on human rights 
        is made during each year's meeting. This year's discussions of 
        human rights at the S&ED was extremely disappointing, which 
        included no reference of specific human rights cases, such as 
        those prisoners of conscience listed among the China 18, or 
        others.
        <bullet> The U.S. Congress must periodically evaluate the 
        efficacy of U.S. foreign policy towards China regarding human 
        rights and when necessary enact legislation that addresses the 
        unique challenges of confronting China on its human rights 
        record. The United States' foreign policy must send a strong 
        and consistent message to the Chinese government that it must 
        reverse its trajectory of denying basic human rights to its 
        citizens or face specific consequences.
        <bullet> The U.S. State Department should strongly consider 
        posting an officer at the U.S. Embassy in China with the sole 
        responsibility of monitoring and reporting on religious freedom 
        and related human rights abuses within China, including in the 
        areas of Tibet and Xinjiang.
        <bullet> The State Department's office of the International 
        Religious Freedom and the U.S. Commission International 
        Religious Freedom should attempt to visit China each year to 
        conduct field work and communicate with Chinese religious 
        communities directly.
        <bullet> The U.S. State Department should make an official 
        public statement condemning the forced demolition of churches 
        and crosses in Zhejiang province and throughout China.
        <bullet> The U.S. State Department should raise publicly and at 
        all levels of exchanges with the Chinese government the cases 
        of prisoners of conscience included in the China 18 and others.
        <bullet> The U.S. government must reconsider its invitation to 
        President Xi to visit the United States in September, which 
        should either be cancelled, postponed or preconditioned on the 
        following: (1)the release of prisoners of conscience listed 
        among the China 18 and others such as Gao Yu, Pu Zhiqiang, Guo 
        Yushan, and Ilham Tohti; 92) the release of human rights lawyer 
        Gao Zhisheng from house arrest; 93) ending the harassment and 
        detention of human rights lawyers, including releasing 
        currently detained lawyers and legal professionals; and 94) 
        ending the forcible demolition of churches and crosses in 
        Zhejiang province and throughout China.

                               addendum:
1. China Aid's 2014 Annual Report on Religious and Human Rights 
Persecution in China
2. China 18 Prisoners of Conscience: http://www.china18.org

                            *      *      *
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                            
 
              Prepared Statement of Rebiya Kadeer

                             july 23, 2015
    I am very honored to be here today and I wish to express my 
profound appreciation to Representative Chris Smith and Senator Marco 
Rubio for inviting me to testify.
    Uyghurs perceive their belief in Islam not only as a personal 
expression of faith, but also as a statement of their cultural 
distinctiveness. For many Uyghurs, the incursion of the state into this 
private aspect of their lives and the role it plays in establishing a 
broader identity is viewed as part of an assimilative process.
    In East Turkestan, the twofold implementation of strict national 
and regional regulations concerning religious belief and practice mean 
the Uyghur people are subjected to the harshest conditions governing 
religious life in the People's Republic of China (PRC). This occurs 
even though China's domestic laws, such as the Constitution and the 
Regional Ethnic Autonomy Law, guarantee religious freedom.
    Rather than simply forbid religious practice, Chinese authorities 
have implemented regulations that progressively narrow the definition 
of lawful activity. As a result, many Uyghurs often discover 
traditional religious customs are increasingly not permitted. However, 
Chinese officials justify many of the restrictions through claims that 
outlawed practices have been imported from overseas and that it faces 
an organized threat to public security in the form of the ``three evil 
forces'' of terrorism, separatism and religious extremism.
    China's highly politicized criminal-legal system, as well as the 
state apparatus governing and monitoring religion, have ensured the 
government is the ultimate arbiter in the interpretation of religious 
affairs. In effect, the bodies established by the Chinese state to 
oversee administration in China do little to protect religious 
believers, but assist the government's repression of religious freedom 
by helping to formulate and promote restrictive regulations.
    Religious leaders, such as imams, are required to attend political 
education classes to ensure compliance with Chinese Communist Party 
(CCP) regulations and policies; only state-approved versions of the 
Koran and sermons are permitted, with all unapproved religious texts 
treated as ``illegal'' publications liable to confiscation and criminal 
charges against whoever was found in possession of them; any outward 
expression of faith in government workplaces, hospitals and some 
private businesses, such as men wearing beards or women wearing 
headscarves, is forbidden; no state employees and no one under the age 
of 18 can enter a mosque, a measure not in force in the rest of China; 
organized private religious education is proscribed and facilitators of 
private classes in Islam are frequently charged with conducting 
``illegal'' religious activities; and students, teachers and government 
workers are prohibited from fasting during Ramadan. In addition, 
Uyghurs are not permitted to undertake Hajj, unless it is with an 
expensive official tour, in which state officials carefully vet 
applicants.\1\
---------------------------------------------------------------------------
    \1\ See: http://docs.uyghuramerican.org/Sacred-Right-Defiled-
Chinas-Iron-Fisted-Repression-of-Uyghur-Religious-Freedom.pdf
---------------------------------------------------------------------------
    Uyghurs found to have contravened religious regulations are 
punished severely. In a disturbing number of cases, Uyghurs have been 
given long prison sentences for ``illegal'' religious activities for 
actions considered normal by international human rights standards.\2\ 
An area of considerable concern is the open discrimination against 
Uyghurs, especially women, who choose to lead religious lives 
publicly.\3\
---------------------------------------------------------------------------
    \2\ http://www.rfa.org/english/news/uyghur/hunger-
04252014152239.html
    \3\ http://www.cecc.gov/pages/virtualAcad/
index.phpd?showsingle=125102
---------------------------------------------------------------------------
    In the 2015, restrictions placed on Uyghurs' ability to observe the 
Ramadan fast were widely reported. As detailed by the overseas media, 
government work units outright denied Uyghurs the right to follow their 
religious customs. For example, middle schools in Bortala, Tarbaghatay 
and Tumshuq informed their employees and students that they were not 
permitted to fast.\4\ In Jing County, restaurant owners were mandated 
by the local Food and Drug Administration to remain open during fasting 
hours.\5\ Reports also surfaced on social media that Uyghurs were being 
compelled to eat watermelon in public to demonstrate non-observance of 
the fast. Although these reports remain unconfirmed, they are 
consistent with numerous accounts I have heard from Uyghurs, 
particularly students, who are required to drink water at school in 
front of their teachers to ``prove'' they are following school and 
local government regulations.
---------------------------------------------------------------------------
    \4\ See: http://www.cnn.com/2015/07/02/asia/china-xinjiang-ramadan/ 
and http://www.ibtimes.com/ramadan-2015-fasting-banned-china-muslim-
government-employees-students-teachers-1975294
    \5\ See: http://www.aljazeera.com/news/2015/06/china-bans-ramadan-
fasting-muslim-region-150618070016245.html
---------------------------------------------------------------------------
    Ramadan in 2015 was particularly tense. In an article dated June 
24, 2015, Radio Free Asia described how government workers were being 
put on alert prior to the holy month. The report was an alarming 
indication of the suspicion with which the state views Uyghurs who 
continue with their religious practices. Furthermore, according to 
Radio Free Asia, one county issued ``guidelines calling for the 
intrusive searches of convenience stores, repair shops, and mosques.'' 
\6\ These restrictions create an atmosphere of distrust; however, 2015 
witnessed provocations against the Islamic faith previously not seen. 
Reports that a beer drinking contest had been organized in Niya, a 
predominately Uyghur settlement, on the eve of Ramadan was a 
humiliation of the Islamic faith.\7\
---------------------------------------------------------------------------
    \6\ See: http://www.rfa.org/english/news/uyghur/ramadan-
06242015084626.html
    \7\ www.reuters.com/article/2015/06/22/us-ramadan-china-
idUSKBN0P20L620150622
---------------------------------------------------------------------------
    Religious repression of Uyghurs has been long documented by the 
State Department, the Congressional-Executive Commission on China, the 
United States Commission on International Religious Freedom and several 
human rights organizations. In 2014 USCIRF called for China to remain a 
Country of Particular Concern on the US State Department's blacklist of 
religious freedom violators. USCIRF vice chair, Katrina Lantos Swett 
told reporters: ``Any independent religious expression is targeted in 
China . . . unless practitioners of whatever faith basically submit to 
government-controlled religious organizations and religious worship, 
they are at risk of becoming a target.'' \8\
---------------------------------------------------------------------------
    \8\ See: http://www.rfa.org/english/news/vietnam/religious-
04302014155256.html
---------------------------------------------------------------------------
    A report published by Human Rights Watch in 2005 described the 
close relationship between the Uyghur identity and Islam. The authors 
of the report accurately state: ``Islam is perceived as feeding Uighur 
ethnic identity, and so the subordination of Islam to the state is used 
as a means to ensure the subordination of Uighurs as well.'' \9\ A 
report issued by the Uyghur Human Rights Project (UHRP) in 2013 found a 
sharp deterioration in Uyghur religious rights in the period following 
2005.\10\
---------------------------------------------------------------------------
    \9\ See: http://www.hrw.org/reports/2005/china0405/china0405.pdf
    \10\ See: http://docs.uyghuramerican.org/Sacred-Right-Defiled-
Chinas-Iron-Fisted-Repression-of-Uyghur-Religious-Freedom.pdf
---------------------------------------------------------------------------
    Since the publication of UHRP's report in April 2013, the evidence 
of China's denial of the Uyghurs' right to freedom of religion has not 
abated. The increased repression of religious practices and belief 
underway corresponds with Chinese president, Xi Jinping's determination 
to implement a ``major strategic shift'' in East Turkestan that 
prioritizes security policies in the region.\11\ State rhetoric 
regarding the tightening of security is often accompanied by crackdowns 
on the ``three evil forces of separatism, extremism and terrorism,'' 
which frequently target peaceful religious expression.\12\ A trip to 
East Turkestan by Xi Jinping concluded on April 30, 2014 reinforced the 
call for enhanced security measures. Xi visited People's Liberation 
Army soldiers and the People's Armed Police in Kashgar, a Uyghur 
majority city that he claimed was the frontline of 
counterterrorism.\13\
---------------------------------------------------------------------------
    \11\ http://www.globaltimes.cn/content/836495.shtml#.U2KfFa1dWi4
    \12\ http://www.chinadaily.com.cn/china/2012-03/06/content--
14766900.htm
    \13\ http://www.reuters.com/article/2014/04/29/us-china-xinjiang-
idUSBREA3S03D20140429
---------------------------------------------------------------------------
    Radio Free Asia reported a series of cases involving limits placed 
on Uyghur religious expression across East Turkestan in 2013 and 2014, 
including: Balaqsu, near Kashgar in May 2013; Beshtugmen and Igerchi, 
near Aksu City in May 2013; Uchturpan, in Aksu Prefecture in August 
2013; Shihezi in November 2013; Turpan in April 2014; and in April 
2014, the fourth extension to an original 12-year jail term handed down 
to Uyghur religious leader, Abdukiram Abduveli. In an extraordinary 
move, the harshness of the religious policies prompted a Uyghur 
delegate to the Chinese People's Political Consultative Conference to 
speak out during a March 2014 session.\14\
---------------------------------------------------------------------------
    \14\ See: http://www.rfa.org/english/news/uyghur/registration-
05022013112851.html; http://www.rfa.org/english/news/uyghur/hijab-
05312013175617.html/; http://www.rfa.org/english/news/uyghur/uchturpan-
08052013173737.html; http://www.rfa.org/english/news/uyghur/imam-
04232014162941.html; http://www.rfa.org/english/news/uyghur/hunger-
04252014152239.html and http://www.rfa.org/english/news/uyghur/
delegate-03192014174510.html
---------------------------------------------------------------------------
    A further sign that regulations governing religion hardened since 
Xi's announcement is an April 14, 2014 notice issued by the Chinese 
Communist Party committee of Qartal Bazaar in Aksu City regarding the 
holding of an ``unlawful'' funeral ceremony for Nurdin Turdi, a loyal 
party official distinguished by the state. The notice, widely 
circulated on social media, states that as Nurdin Turdi's funeral was 
held at a mosque and not at his home, his family was in contravention 
of regulations on funerals for individuals holding Turdi's status. As a 
consequence of the infraction, the funeral fees normally paid by the 
state to such individuals were rescinded and six months of benefits to 
the family withheld. Customarily, the state used to permit Islamic 
burials for any Uyghur who wished to have one.\15\
---------------------------------------------------------------------------
    \15\ http://docs.uyghuramerican.org/5-8-14--Briefing-Religious--
Restrictions.pdf
---------------------------------------------------------------------------
    Prior to Ramadan in 2015, reports surfaced of the harsh sentencing 
of a Uyghur from Kashgar to six years in jail because he had grown a 
beard in accordance with his religious beliefs. The man's wife was 
handed a two year sentence for ``veiling herself.'' \16\ The ban on 
Islamic veiling in Urumchi in 2015 was described by scholars James 
Leibold and Timothy Grose as a sign of ``a deepening rift of mistrust 
between the Uighur and the Han-dominated Communist Party.'' \17\
---------------------------------------------------------------------------
    \16\ http://america.aljazeera.com/articles/2015/3/30/activists-
call-chinas-jailing-of-muslim-over-beard-absurd.html
    \17\ http://www.latrobe.edu.au/news/articles/2015/opinion/why-
china-is-banning-islamic-veils
---------------------------------------------------------------------------
    Universal religious freedom is protected under Article 18 of the 
normative human rights standards outlined in the Universal Declaration 
of Human Rights. Other international instruments whose standards China 
is obliged to meet also ensure the right of religious freedom, such as 
the Convention on the Rights of the Child and the Convention on the 
Elimination of All Forms of Discrimination against Women. China's 
domestic laws, such as the Constitution and the Regional Ethnic 
Autonomy Law, have strong provisions on freedom of religious belief. 
Despite this international and domestic legal framework, restrictions 
on religious freedom are deemed ``lawful'' by Chinese authorities 
through the strict implementation of regulations that contradict 
China's own laws and international obligations.
                                 ______
                                 

                  Prepared Statement of Losang Gyatso

                             july 23, 2015
    Since problems facing religion, religious institutions, and 
religious teachers in Tibet is widely known and well documented by this 
Commission and many other governmental and non-governmental 
organizations in the US and abroad, I won't take up too much of your 
time going over examples.
    I would like to however touch on two events that took place this 
month which may serve to highlight the degree to which the Chinese 
Communist Party is willing to carry out actions that cause enormous 
suffering for Tibetans, and that create an environment of oppression in 
monasteries and in the personal lives of Tibetans that have triggered 
the self-immolation protests by over 140 Tibetans since 2009.
    The latest such protest took place in the afternoon of July 9. A 
young monk named Sonam Topgyal set himself on fire at a public square 
in Kyegudo, the prefectural capital of what China today refers to as 
Yulshul Tibetan Autonomous Prefecture in Qinghai province. Photos and 
videos showing Sonam Topgyal on the ground in flames have emerged since 
then, and once again as in many previous cases, Sonam Topgyal was taken 
from the site by Chinese security and is believed to have died in a 
Xining hospital.
    A note he wrote one week earlier has surfaced and in it he says, 
``I am a twenty-seven-year-old son of Tashitsang of Nangchen, Yulshul 
in Tsongon region. Currently, I am a monk studying at Dzongsar 
Institute. As people within the country and outside are aware, the 
Chinese government does not look at the true and real situation of the 
minorities but practices only harsh and repressive policies on them. At 
a time when the government is carrying out policies to stamp out our 
religion, tradition and culture, and destroy our natural environment, 
there is absolutely no freedom of expression for the people, and there 
is no channel to appeal our situation. ''
    The other development this month which has been particularly 
difficult for Tibetans is the prison death of a widely respected Lama 
and political prisoner on July 12. Tenzin Delek Rinpoche's family and 
monastic community had not been allowed to see him since 2013, and were 
not allowed to see him on the day that Chinese authorities claim he 
died of a heart attack, nor for several more days as they pleaded to 
have his body returned to them in order to conduct a funeral fitting 
for a high Lama. Tibetans pleading for the return of his body were 
beaten severely by security forces on July 13 in Nyagchu county, 
Sichuan. Several days after the announcement of his death, his family 
and some monks were allowed to see his body in the detention center 
where he was then incinerated in the prison crematorium. The Chinese 
have been in Tibet since 1951, long enough to understand that a prison 
cremation for a highly regarded spiritual teacher will be seen by 
Tibetans as a humiliating and degrading act, and therefore understand 
it to be an added punishment for those who had been pleading his 
innocence for 13 years, and then pleading for his remains after his 
death. Further troubling is the fact that his sister and niece went 
missing since July 17. A relative of Rinpoche in exile that VOA 
interviewed, suspected that the two women had been detained for 
possibly persisting in demanding a proper investigation into the cause 
of his sudden death.
    On July 14, House members at a hearing on Tibet by the Tom Lantos 
Human Rights Commission had urged the Chinese authorities to return the 
body of Tenzin Delek Rinpoche to his family members, and as back as 
2004, the US Senate passed a resolution by unanimous consent calling 
for Tulku Tenzin Delek Rinpoche's release. Both calls have gone 
unheeded.
    Tenzin Delek Rinpoche's story is neither unique nor rare when you 
look back over the last six decades of Chinese rule of Tibet. Today, 
there are many known and probably many more unknown Tibetans 
languishing in China's prisons for simply expressing their dissent with 
the oppressive rules and regulations governing Tibetan lives and the 
institutions and figures of Tibetan Buddhism. Writers and artists are 
imprisoned for simply writing or singing about their love for Tibet's 
mountains and lakes, culture, or history. Many more are detained for 
refusing to denounce their religious heads, such as the Dalai Lama, 
during reeducation campaigns at temples and monasteries. All of the 
above seemingly innocuous acts can today be categorized as separatist 
acts according to recent regulations targeting Tibetans. And once in 
prison, the Tibetans are accused of acting at the instigation of the 
Dalai Lama, and or foreign anti-China forces, by which most Tibetans 
understand the Chinese to mean the United States, and are then 
subjected to torture and prolonged mistreatment with the sole purpose 
of extracting confessions that correspond to the accusations. This 
process, repeated across Tibet for 50 years has created immeasurable 
suffering for the Tibetan people, and deeply disturbed their 
psychological wellbeing for decades.
    As I mentioned earlier, the Chinese government's attack on religion 
and religious institutions and figures in Tibet is not a recent 
development, nor are they random aberrations in their rule of Tibet 
since 1951. The Chinese Communist Party has been purposefully and 
methodically working to dismantle the very fabric of Tibetan 
spirituality and religious traditions since 1955. Between 1955 and 
1965, almost every single religious institution in Tibet, estimated to 
number over six thousand monasteries and temples, had been aerial 
bombed, artillery shelled, and razed to the ground. Tens of thousands 
of Lamas, monks and nuns were imprisoned, executed, or disrobed. Public 
humiliation and torturing of respected reincarnated Lamas, often to the 
death, took place across Tibet in the 1950s and 60s in order to 
ridicule religion and prove that religious figures were powerless. 
Attacks on religion during that period was the reason why all of the 
heads of the five major schools of Tibetan Buddhism went into exile in 
1959 before the fall of the Tibetan government, and remain so to this 
day. The highest ranking Lama remaining inside Tibet was the Panchen 
Lama, who spent 13 years in solitary prison for speaking against what 
the Chinese had done in Tibet. After his sudden death in 1989, the 
Chinese installed their own choice of the predecessor's reincarnation, 
a child whose parents are Party members. The child that was selected by 
monks in the Panchen Lama's own monastery and approved by the Dalai 
Lama, was disappeared along with his entire family in May 1995 and has 
not been heard of since then.
    In 2007, China's State Administration for Religious Affairs 
introduced measures that dictate which Tibetan religious figures may or 
may not reincarnate, and the requirement for the approval of selected 
reincarnated lamas by offices under the communist party. While this may 
appear simply surreal and bizarre to most people, there are two very 
serious possible consequences from these measures; one that will even 
further diminish human rights in Tibet, and the other that will impact 
the state of religious institutions and the very existence of religious 
practice as we know it in Tibet.
    Firstly, since nearly all expressions critical of conditions in 
Tibet, and or, in praise of aspects of Tibetan culture and identity can 
be categorized as `separatist' activities that are punishable acts 
today, the following sentence in the measure, ``Living Buddha 
reincarnations should respect and protect the principles of the 
unification of the state,'' would mean that all officially sanctioned 
reincarnated Lamas and the religious institutions affiliated with them 
would be forced into silence on issues relating to human rights, and 
the state of religious and cultural freedoms in Tibet.
    And secondly, and this may not be fully appreciated by many people 
at present, the interference by the communist party in the selection or 
deselection of reincarnate spiritual masters undermines Tibetan 
Buddhism at its most fundamental level by aiming to break the trust and 
faith that Tibetans have invested in their Lamas for hundreds of years. 
Tibetan Buddhist practice, based on ancient Indian traditions, holds at 
its very core, the sacred relationship between religious teachers with 
pure and direct spiritual lineages, many that go back a thousand years, 
and the student practitioners who take vows, initiations, and 
meditation instructions from them. The successful guidance through 
complex psychological states and through layers of consciousness in the 
course of a person's spiritual practice relies completely on this 
connection between trusted and respected reincarnated Lamas and their 
followers.
    The measures to control reincarnated Lamas is therefore aimed at 
this bedrock of Tibetan religious practice and could lead to the 
destruction of thousands of unbroken spiritual lineages of the Lamas, 
and to the eventual demise of Tibetan Buddhism as it has been practiced 
since the 13th century.
    As an example and on a much more mundane level, it is as if a 
government decided that it would select people to practice medicine, 
surgery, and psychiatry based not on their qualifications, but on their 
political leaning. You can imagine what that would do to the state of 
health care.
    These are just a few examples of how persecution of religion and 
religious institutions and figures in Tibet are an ongoing feature of 
Chinese rule of Tibet, and they are posing existential challenges for 
Tibetans in maintaining intellectual rigor and spiritual vitality in 
the monasteries and temples across Tibet. The Dalai Lama says in his 
autobiography that in one of his meetings with Chairman Mao in 1954, 
Mao turned to him, leant forward, and said that, ``religion is 
poison.'' That view appears to have been and continues to be the 
guiding principle of Chinese rule in Tibet, where its policies since 
1955 have gone from destroying religion completely, to today, where a 
small number of monitored monasteries and controlled religious figures 
are allowed to exist as a show of the government's tolerance for 
religion, and as tourist destinations, while in reality, the monastic 
institutions and the system of reincarnated Lamas is being controlled 
and used purely for the perpetuation of China's control of Tibet.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                             july 23, 2015
    The freedom of religion is the key human right. It is clearly the 
first freedom from which all others flow. It allows each citizen the 
precious right to follow their conscience peacefully and without fear. 
It protects the critical part of who we are as human beings--to seek, 
to speak, and to act out our fundamental beliefs. When this freedom is 
protected the very well-being of society is enhanced. No government 
should deny or suppress this essential claim to conscience.
    The reality is that governments and terrorist groups do restrict 
the freedom of religion, sometimes in the most brutal and public ways. 
The freedom of religion is under siege in many places of the world, 
including in China which is the subject of today's hearing.
    Because religious freedom conditions are deteriorating globally, I 
introduced HR 1150, the Frank Wolf International Religious Freedom Act. 
The bill gives the Administration tools to better address religious 
freedom violations around the world. It is why I am also fighting to 
reauthorize the U.S. Commission on International Religious Freedom 
(USCIRF) which is a bipartisan and independent advisory body. USCIRF 
gives Congress vital recommendations about religious freedom conditions 
globally.
    Several years ago during a visit to the United States, Xi Jinping 
was interviewed by a Chinese reporter on fellowship at a U.S. college. 
(Some of the details changed to protect the identity of the person.) 
After the interview, President Xi asked a single question of this 
reporter--not about his family, not about his studies, not about 
whether he enjoyed living in America--the one question he asked was 
``Why do so many Chinese students studying in the United States become 
Christians? ''
    Why one of the world's most powerful political leaders asked this 
question may never be known. And the student did not have an answer. 
But religion was on President Xi's mind that day. Whatever was behind 
that complex question, religious freedom conditions in China have not 
improved because of it. Quite the opposite, in fact, it has been a 
punishing year for China's diverse religious communities.
    China continues to rank up there with Iran, Vietnam, and Saudi 
Arabia in terms of the sheer misery it inflicts on members of its 
diverse religious communities. This is the verdict of the bipartisan 
and independent U.S. Commission on International Religious Freedom. It 
is the verdict of the State Department, which has designated China as a 
``Country of Particular Concern'' since 1999 for being one of the 
world's worst violators of religious freedom. This is the verdict of 
human rights organizations. We will hear today if our witnesses share 
this verdict.
    Chinese authorities are frightened by the simple proposition that 
individuals have the right to live out their beliefs openly and 
peacefully, without fear or intimidation. All we have to do is look at 
events in the past few weeks to see a coordinated, unnecessary, and 
often brutal campaign to manage, control, or crush China's many 
religious communities. It's been a very bad month in China:

        <bullet> Two days ago, a cross on a Christian church was burned 
        near the city of Wenzhou . Over 1,200 crosses, along with 35 
        church buildings, were demolished since 2014. This was done 
        reportedly because they were too prominent, demonstrating the 
        Party's weakness.
        <bullet> During the just-concluded month of Ramadan, Uyghur 
        Muslim students, teachers, professors, and government employees 
        were deprived of the freedom to fulfill their religious duties. 
        In recent years, officials have shut down religious sites; 
        conducted raids on independent schools, confiscated religious 
        literature, and banned private study of the Koran. A new draft 
        Counterterrorism law equates terrorism with ``religious 
        education of minors.''
        <bullet> The Dalai Lama turned 80 this month and the Chinese 
        government expanded attempts to undermine his leadership and 
        control the selection of Tibetan Buddhist leaders. 273 Tibetan 
        Buddhist monks and nuns are currently detained. Sadly, revered 
        teacher Tenzin Deleg died in prison last week. He was serving a 
        life sentence on politically motivated charges.
        <bullet> Beijing also continues its relentless 16-year campaign 
        to obliterate the Falun Gong, the anniversary which is each 
        year during July. There are reports of torture in detention, 
        deaths in custody, and allegations of the harvesting of organs.
        <bullet> Two weeks ago, Chinese Communist Party authorities 
        also launched a massive crackdown on human rights lawyers. The 
        lawyers were accused of being a ``criminal gang'' charged with 
        ``creating chaos'' because they defended the rights of Falun 
        Gong, Uyhgurs, Christians, and others persecuted. Many of the 
        lawyers detained are professing Christians, spurred by their 
        faith to defend the vulnerable.

    Senator Rubio and I put out a statement about the arrest of human 
rights lawyers in China. We called the detentions ``unjustified'' and 
said the round-up of human rights lawyers was ``an undeniable setback 
in U.S.-China relations.'' I would like to add that statement to the 
record without objection.
    China's active suppression of faith communities, its massive 
repression of rights lawyers, and the brutal, and sometimes deadly, way 
it deals with prisoners of conscience are a sad and black mark on 
China's recent history. And it will be remembered by history as brutal, 
unnecessary, and entirely counterproductive.
    It is counterproductive because religious restrictions makes China 
less stable, repression can exacerbate extremism and cause instability. 
Religious freedom, according to the Pew Research Center, can be a 
powerful and effective antidote to religious extremism.
    It is counterproductive because targeting peaceful religious 
citizens undermines the legitimacy of the state, because it reminds 
even non-believers of the state's capricious power.
    It is counterproductive because religious persecution marginalizes 
the persecuted, robbing China of their talents, their economic 
productivity, and their contributions to society.
    The issue of religious freedom must be addressed by the 
Administration during a planned September summit.
    But we must ask whether this summit should even take place. There 
are many issues in the U.S.-China relationship that need attention, but 
does President Xi--given his ``bold disregard'' for human rights and 
his brutal suppression of dissent--deserve to get red carpet treatment 
in Washington?
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                             july 23, 2015
    Nearly two weeks ago Chinese Communist Party authorities launched 
an unprecedented crackdown on human rights lawyers and activists that 
has been characterized as the most severe since the legal system was 
reestablished in 1980 after the Cultural Revolution. To date, more than 
200 have been detained, questioned, or reported missing.
    These ``Black Friday'' events have rightly garnered widespread 
international condemnation but Chinese President and Communist Party 
General Secretary Xi Jinping is unbowed and in fact seemingly 
emboldened. State media reported earlier this week that the Party 
managed to extract so-called ``confessions'' from some of the accused 
regarding their alleged involvement in a criminal gang suspected of 
interfering with the judicial process and inciting disorder.
    As we examine the situation facing China's courageous lawyers, men 
and women who have been described as the closest thing China has to a 
political opposition, an interesting thread emerges--namely the role of 
faith.
    Many of those detained are practicing Christians. Several of the 
detained have taken on high-profile cases of individuals who have 
earned the ire of the Chinese Government for daring to live out their 
religious and spiritual convictions, including Uyghur Muslims, 
Christian house church leaders, Tibetan Buddhists, and Falun Gong 
practitioners.
    It is precisely this issue of religious freedom which is the focus 
of today's Congressional-Executive Commission on China hearing.
    Without question, religious freedom is under assault in China. 
Irrespective of belief, the government's oppression knows no bounds.
    In its most recent annual report, the independent, bipartisan U.S. 
Commission on International Religious Freedom (USCIRF) described the 
situation facing religious adherents in China this way: ``In 2014, the 
Chinese government took steps to consolidate further its authoritarian 
monopoly of power over all aspects of its citizens' lives. For 
religious freedom, this has meant unprecedented violations against 
Uighur Muslims, Tibetan Buddhists, Catholics, Protestants, and Falun 
Gong practitioners. People of faith continue to face arrests, fines, 
denials of justice, lengthy prison sentences, and in some cases, the 
closing or bulldozing of places of worship.''
    USCIRF and the U.S. Department of State are of one mind that China 
is deservedly considered a Country of Particular Concern, a designation 
reserved for only the most severe violators of religious freedom.
    News headlines in just the last year have been dominated by 
harrowing accounts of persecution and repression. Chinese authorities 
have implemented an extensive cross removal campaign resulting in the 
destruction of hundreds of Christian crosses. Thai authorities forcibly 
repatriated Uyghur Muslims to China where they face an uncertain 
future. Tibetan Buddhists have continued to set themselves on fire in 
desperation at the abuses their people have endured at the hands of the 
Chinese government.
    The Chinese government has sought, through brutal methods, to 
restrict the ability of the Chinese people to worship and peacefully 
live out their faith according to the dictates of their conscience. 
Their misguided efforts have arguably had the unintended consequence of 
infusing many of these religious adherents with greater vibrancy as 
evidenced most dramatically by the explosive growth of Christianity in 
China.
    The developments in China, including the crackdown on human rights 
lawyers and the deteriorating situation for religious freedom, are 
worthy of attention at the highest levels of the U.S. Government. With 
the upcoming human rights and counterterrorism dialogues and the 
pending September visit by Chinese President Xi Jinping, the Obama 
administration must seriously weigh what points of leverage exist in 
our bilateral relationship and seize on them.

                       Submissions for the Record

                              ----------                              


   Statement Submitted for the Record by Ellen Bork, Senior Fellow, 
   Foreign Policy Initiative; Visiting Fellow, Henry Jackson Society

                             july 23, 2015
    I thank the Chairman, co-chairman and the commission for inviting 
me to comment on the geopolitical context for China's religious 
persecution and to offer thoughts on how the United States should 
respond.
    Even considered in the light of China's worsening record on human 
rights, developments over the past several weeks have been disturbing. 
They include the roundup of over 200 human rights lawyers and 
activists, the forced repatriation to China from Thailand of more than 
100 Uighurs, Turkic Muslims from China's far west, the adoption of a 
new national security law, and the death in prison of a revered Tibetan 
monk, Tenzin Delek Rinpoche. His death was followed by the cruel and 
suspicious refusal to return his body to his family for funeral rites, 
which prevented independent examination to determine the cause of 
death.
    These events occur in the context of two geopolitical trends: a 
decline in democracy around the world and concerted efforts by the most 
powerful authoritarian regimes to undermine settled democratic norms 
and the institutions that uphold them. At the same time, President 
Obama has downgraded democracy and human rights as priorities in 
American foreign policy, contradicting the case for American leadership 
in Asia based on democratic values he placed at the heart of his 
``pivot' to Asia.
    According to Freedom House's most recent annual survey, democracy 
around the world has declined for the ninth year in a row. The number 
of countries that registered declines in political and civil liberties 
outstripped those with gains by nearly two to one. The survey also 
recorded the lowest number of countries showing improvement in 
democratic governance in the past nine years. Arch Puddington wrote in 
an essay accompanying the survey: ``acceptance of democracy as the 
world's dominant form of government--and of an international system 
built on democratic ideals--is under greater threat than at any point 
in the last 25 years.''
    China is a leading force in this ``democratic recession.'' 
Domestically, China's notorious human rights record has been judged by 
Chinese Human Rights Defenders to be the worst since the mid-1990s, 
``especially in terms of abuses aimed at silencing, intimidating, and 
punishing those who promote the protection of fellow Chinese citizens' 
rights.'' Although Communist Party General Secretary Xi Jinping didn't 
start the trend, CHRD noted he has accelerated it, including by leading 
``an ideological shift that harkens back to the Maoist era'' and 
stressing ``a CCP orthodoxy that rejects constitutional democracy, 
human rights, free press, and rule of law as `Western universal 
values.''' ``Never allow singing to a tune contrary to the party 
center,'' Xi commented on party and academic websites earlier this 
year, the New York Times reported. ``Never allow eating the Communist 
Party's food and then smashing the Communist Party's cooking pots.''
    General Secretary Xi uses subtler language in the global assault 
China is leading on democratic norms and multilateral institutions 
based on them. China, along with Russia and other authoritarian 
countries, is trying to redefine settled norms in order to weaken the 
liberal international order that threatens their external and internal 
legitimacy. To do this, they are using tools including media and 
foreign aid as well as adopting ``laws'' to restrict freedoms of 
assembly, speech, religion and other rights. I recommend to the 
commission the work Alexander J. Cooley of Columbia University and 
Christopher Walker and the National Endowment for Democracy and Arch 
Puddington and others at Freedom House have done on the challenge of 
``resurgent authoritarianism.''
    China, writes Professor Cooley, is taking the lead in advancing an 
``emerging counter norm'' of ``civilizational diversity'' and the 
``principle of noninterference in the domestic affairs of sovereign 
states.'' The forced repatriation of the Uighurs from Thailand, and 
other countries, is a perfect example. Beijing has long claimed 
Xinjiang, the former East Turkistan, along with Tibet and Taiwan as a 
``core interest,'' a phrase that conveys these claims and the party's 
policies there are beyond compromise. Now, in addition to rebuffing 
unwelcome criticisms of repression inside Chinese-held territory, 
Beijing is pursuing its ``core interests'' by interfering in other 
countries' affairs, violating international law on non-refoulement of 
refugees in the process. It seems unlikely that a democratic government 
in Thailand would have done Beijing's bidding.
    China attempts much the same thing with regard to Tibetans, 
interfering brazenly in the affairs of Nepal, its much smaller, weaker 
neighbor that has historically provided refuge for Tibetans fleeing 
Chinese repression. ``Under China's Shadow: Mistreatment of Tibetans in 
Nepal,'' a 2014 report by Human Rights Watch details intelligence 
cooperation agreements between Nepal and China, pressures on Nepal to 
restrict rights of Tibetans in Nepal and quotes Tibetans fearful of 
being returned to China from Nepali territory.
    Now it appears China is expanding its ``core interests'' to 
encompass new territorial and maritime claims, as well as an 
ambiguously broad concept of national security. Edward Wong of the New 
York Times reports the recently adopted national security law can be 
read as defining ``core interests'' to include ``the political regime; 
the sovereignty, unity and territorial integrity of the nation; and 
people's livelihoods, sustainable economic development of society and 
other major interests.'' This articulation of ``core interests'' could 
extend the concept to islands in the East China Sea or to China's 
disputed border with India, including in the state of Arunachal 
Pradesh, which Beijing already claims as ``Southern Tibet.'' A 
definition of China's ``core interests'' that includes the survival of 
the party or unity of the nation could also make activities of lawyers, 
including, for example, those defending the rights of Uighurs or 
Tibetans, vulnerable to charges of violating national security.
    The assault on democracy is a direct challenge to the U.S. In an 
article earlier this year in the Journal of Democracy, Robert Kagan 
traced democracy's ascendancy in the last century to a ``configuration 
of power and ideas.'' The victory of democratic values was not 
preordained or inevitable. At different times, other ideologies had 
held sway. The U.S. used a ``variety of tools, including direct 
military intervention'' - or the threat of it - ``to aid democratic 
transitions and prevent the undermining of existing fragile democracies 
all across the globe.'' Europe played an important role as well. The 
norms that emerged Kagan writes ``did not appear out of nowhere or as 
the result of some natural evolution of the human species.'' They were 
built and defended. They were and remain ``transient.''
    Despite its stake in the survival of democratic values and 
institutions, Washington is on its back foot when it comes to defending 
them. President Obama has made a different approach to democracy and 
dictatorships, uncritical engagement and passivity, the signature of 
his administration. His ``pivot to Asia'' initially contained a strong 
rationale for U.S. leadership based on the advancement of democratic 
values. He quite rightly presented these as universal rather than 
American. In his speech to the Australian parliament, he rejected other 
political models, including communism, as failures.
    That ambitious and principled vision has not been sustained.
    In the absence of executive leadership, Congress can play an 
important role. It has done so in the past. Members of Congress led 
American support for the Helsinki movement even when the executive was 
reluctant. Congress was central to the effort to pressure China on 
human rights, especially through the annual review of China's trade 
status, although eventually it too gave way to pressures to pursue 
unconditioned trade and engagement.
    As a first step, Congress can help by carrying this cause to their 
constituents. They should make individual Chinese political prisoners 
household names just as Soviet dissidents were. At a minimum, there is 
evidence that such attention improves the conditions under which 
political prisoners are held and protects them from torture. Human 
rights activists welcome international attention. Dissidents are 
already in trouble with the regime, one Chinese intellectual once told 
me. ``If the support is not there it will hurt much more.''
    Congress should identify or create leverage to use in pressing 
Beijing. Congress should consider the global application of the visa 
and financial sanctions regime adopted for Russia in 2012. That 
legislation, known as the Magnitsky Act, after the Russian lawyer whose 
death in jail inspired them, did two things. It replaced the historic 
Jackson-Vanik amendment's link of free emigration to trade with the 
Soviet Union with a measure tailored to Russia's current post-Soviet 
circumstances. Adoption of the Magnitsky sanctions also ensured that 
there was no lapse in America's support for human rights in Russia. By 
contrast, China's MFN process was ended and PNTR adopted without 
something to replace it. Expressing U.S. disapproval of human rights 
abuses through a visa ban or possible financial sanctions would be an 
important step, as would adoption of a pending measure that would 
enable the State Department to make Chinese diplomats' travel within 
the U.S. conditional on access to Tibet.
    The U.S. must reassert American leadership in defending the liberal 
democratic order against the alternative leading authoritarian 
countries are trying to establish. ``Insofar as there is energy in the 
international system,'' Kagan wrote, ``it comes from the great-power 
autocracies.'' America must match and exceed their efforts. There is no 
doubt we can. As President Obama often says, it is ``who we are.''
                                 ______
                                 

 Statement by CECC Chairs Representative Chris Smith and Senator Marco 
 Rubio on President Xi's ``Increasingly Bold Disregard for Basic Human 
                                Rights''

                         tuesday, july 14, 2015
    (Washington, DC)--With the recent detentions and interrogations of 
scores of human rights lawyers and the death in detention of Tibetan 
Buddhist religious leader Tenzin Deleg Rinpoche, the Chairs of the 
Congressional-Executive Commission on China (CECC) issued the following 
statement.
    ``We are deeply alarmed by the recent round-up of scores of human 
rights lawyers and activists in China and believe this wave of 
repression constitutes an undeniable setback in U.S.-China relations. 
These unjustified detentions and interrogations, part of a coordinated 
nationwide crackdown reaching far beyond Beijing, are just the latest 
example of President Xi Jinping's intolerance for dissent and mockery 
of the rule of law. President Xi promised a China governed by the rule 
of law, but is instead using the law, particularly an onerous and vague 
National Security Law, as a tool of oppression and control. The 
detentions come on the heels of a joint statement of solidarity 
released by 100 lawyers last Friday protesting the disappearance of 
prominent human rights lawyer Wang Yu, who worked at the Fengrui Law 
Firm, which police have labelled a `major criminal organization' for 
daring to take on dozens of sensitive cases. The detentions coincided 
with the sad and unnecessary death of a prominent 65-year old Tibetan 
religious leader, Tenzin Deleg Rinpoche, who had served thirteen years 
of a life term based on politically motivated charges. He had been 
repeatedly denied medical parole for his heart condition.''
    ``President Xi wants a `new type' of relationship with the U.S, but 
continues to pursue repressive policies rooted in China's past. Sadly, 
China seems to be closing its doors to new ideas and ways of thinking 
that are essential for the type of economic innovation, political 
transparency, and diplomatic cooperation needed to shape the future of 
U.S.-China relations. These issues and President Xi's increasingly bold 
disregard for basic human rights must necessarily serve as the backdrop 
for the planned September summit. We are compelled to ask whether such 
treatment of one's own citizens is deserving of a red carpet welcome in 
Washington.''
                                 ______
                                 

               Religion With ``Chinese Characteristics'':
             Persecution and Control in Xi Jinping's China

                             july 23, 2015

                               Witnesses

    Anastasia Lin, Human Rights Activist and the Current Miss World 
Canada

    Ms. Anastasia Lin is a Toronto-based actress. She won the Miss 
World Canada title in 2015. Since her start in acting at the age of 
seven, Anastasia has appeared in over 20 films and television 
productions, and most prominently played lead actress in several 
Toronto-based films about human rights themes in China. Her work has 
garnered numerous international awards including the Mexico 
International Film Festival's Golden Palm Award and California's Indie 
Fest Award of Merit. Along with her acting and participation in 
pageants, she is known for her public position against human rights 
abuses in China. Canadian television reports attributed her victory in 
the 2015 Miss World Canada Pageant in part to her passion for human 
rights. Anastasia will participate in the 2015 Miss World competition 
to be held this December in Sanya city, Hainan province, China.

    Bob Fu, Founder and President, ChinaAid Association

    Pastor Bob Fu was a leader in the 1989 student democracy movement 
in Tiananmen Square and later became a house church pastor. In 1996, 
authorities arrested and imprisoned Pastor Fu and his wife for their 
work. After their release, they escaped to the United States and, in 
2002, he founded ChinaAid Association. ChinaAid monitors and reports on 
religious freedom in China and provides a forum for discussion among 
experts on religion, law, and human rights in China. Pastor Fu is 
frequently interviewed by media outlets around the world and has 
testified at U.S. congressional hearings. He has also appeared before 
the European Parliament and the United Nations. Pastor Fu holds a 
double bachelor's degree from People's University and the Institute of 
Foreign Relations, and he has taught at the Beijing Communist Party 
School. In the United States, he earned a master's degree from 
Westminster Theological Seminary and is now working on his Ph.D.

    Rebiya Kadeer, President, World Uyghur Congress

    Ms. Rebiya Kadeer is a prominent human rights advocate and leader 
of the Uyghur people. She is the mother of 11 children, and a former 
laundress turned millionaire. She spent six years in a Chinese prison 
for standing up to the authoritarian Chinese government. Before her 
arrest in 1999, she was a well-known Uyghur businesswoman and at one 
time among the wealthiest individuals in the People's Republic of 
China. Ms. Kadeer has been actively campaigning for the human rights of 
the Uyghur people since her release in 2005. She was nominated to 
receive the Nobel Peace Prize several times since 2006. Despite Chinese 
government efforts to discredit her, Ms. Kadeer remains the pro-
democracy Uyghur leader and heads the World Uyghur Congress, which 
represents the collective interest of the Uyghur people in the world.

    Losang Gyatso, Tibetan Service Chief, Voice of America

    Mr. Losang Gyatso is the service chief of Voice of America's 
Tibetan Service which broadcasts news and information into Tibet and is 
arguably the most influential and trusted source of information for the 
Tibetan people. Before joining VOA, Gyatso was a founding director of 
mechakgallery.com, a non-profit group promoting contemporary Tibetan 
art through exhibitions, publications, and social media. Prior to that, 
while working as an advertising executive in New York City in the 1980s 
and 1990s, Gyatso was a Tibetan community organizer and one of the most 
prolific graphic designers for projects carried out by groups such as 
the International Campaign for Tibet, Students for a Free Tibet, and 
Tibetan Center for Human Rights and Democracy.

                                 [all]


</pre></body></html>
